<html>
<title> - OVERSIGHT ON THE COMPACT OF FREE ASSOCIATION WITH THE REPUBLIC OF THE MARSHALL ISLANDS (RMI): MEDICAL TREATMENT OF THE MARSHALLESE PEOPLE, U.S. NUCLEAR TESTS, NUCLEAR CLAIMS TRIBUNAL, FORCED RESETTLEMENT, USE OF KWAJALEIN ATOLL FOR MISSILE PROGRAMS AND LAND USE DEVELOPMENT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 OVERSIGHT ON THE COMPACT OF FREE ASSOCIATION WITH THE REPUBLIC OF THE 
 MARSHALL ISLANDS (RMI): MEDICAL TREATMENT OF THE MARSHALLESE PEOPLE, 
 U.S. NUCLEAR TESTS, NUCLEAR CLAIMS TRIBUNAL, FORCED RESETTLEMENT, USE 
    OF KWAJALEIN ATOLL FOR MISSILE PROGRAMS AND LAND USE DEVELOPMENT

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ASIA, THE PACIFIC AND
                         THE GLOBAL ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2010

                               __________

                           Serial No. 111-119

                               __________

        Printed for the use of the Committee on Foreign Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
56-559 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida<greek-l>As of 5/6/       JEFF FORTENBERRY, Nebraska
    10 deg.                          MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

      Subcommittee on Asia, the Pacific and the Global Environment

            ENI F.H. FALEOMAVAEGA, American Samoa, Chairman
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
DIANE E. WATSON, California          BOB INGLIS, South Carolina
MIKE ROSS, Arkansas                  DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
GREGORY W. MEEKS, New York












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Frankie A. Reed, Deputy Assistant Secretary, Bureau of East 
  Asian and Pacific Affairs, U.S. Department of State............    16
Mr. Nikolao Pula, Director, Office of Insular Affairs, U.S. 
  Department of the Interior.....................................    20
Steven Messervy, Ph.D., Deputy to the Commanding General for 
  Research, Development, and Acquisition, U.S. Army Space and 
  Missile Defense Command, U.S. Department of Defense............    30
Mr. Glenn S. Podonsky, Chief Health, Safety and Security Officer, 
  Office of Health, Safety and Security, U.S. Department of 
  Energy.........................................................    36
Neal A. Palafox, M.D., M.P.H., Professor and Chair, Department of 
  Family Medicine and Community Health, John A. Burns School of 
  Medicine, University of Hawaii.................................    62
Mr. Jonathan M. Weisgall, Legal Counsel for the People of the 
  Bikini Atoll...................................................    75
Mr. Don Miller, Esq., Independent Attorney-at-Law................    91
Mr. Robert Alvarez, Senior Scholar, Institute for Policy Studies.   104

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........     6
The Honorable Gary L. Ackerman, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the Middle 
  East and South Asia: Prepared statement........................    12
Ms. Frankie A. Reed: Prepared statement..........................    18
Mr. Nikolao Pula: Prepared statement.............................    22
Steven Messervy, Ph.D.: Prepared statement.......................    32
Mr. Glenn S. Podonsky: Prepared statement........................    38
Neal A. Palafox, M.D., M.P.H.: Prepared statement................    65
Mr. Jonathan M. Weisgall: Prepared statement.....................    77
Mr. Don Miller, Esq.: Prepared statement.........................    93
Mr. Robert Alvarez: Prepared statement...........................   106

                                APPENDIX

Hearing notice...................................................   140
Hearing minutes..................................................   142
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................   143
The Honorable Eni F.H. Faleomavaega: Material submitted for the 
  record.........................................................   144

 
 OVERSIGHT ON THE COMPACT OF FREE ASSOCIATION WITH THE REPUBLIC OF THE 
 MARSHALL ISLANDS (RMI): MEDICAL TREATMENT OF THE MARSHALLESE PEOPLE, 
 U.S. NUCLEAR TESTS, NUCLEAR CLAIMS TRIBUNAL, FORCED RESETTLEMENT, USE 
    OF KWAJALEIN ATOLL FOR MISSILE PROGRAMS AND LAND USE DEVELOPMENT

                              ----------                              


                         THURSDAY, MAY 20, 2010

              House of Representatives,    
              Subcommittee on Asia, the Pacific    
                            and the Global Environment,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:10 p.m., in 
room 2172, Rayburn House Office Building, Hon. Eni F.H. 
Faleomavaega (chairman of the subcommittee) presiding.
    Mr. Faleomavaega. Today's subcommittee hearing will come to 
order. This is a meeting of the Committee on Foreign Affairs 
Subcommittee on Asia, the Pacific and the Global Environment.
    The hearing involves oversight on the Compact of Free 
Association with the Republic of the Marshall Islands, issues 
referencing the medical treatment of the Marshallese people due 
to our nuclear testing program, the activities of the Nuclear 
Claims Tribunal, greater understanding of the forced 
resettlement to some of these islands and the current use of 
Kwajalein Atoll and land use development--all these issues put 
together.
    I deeply appreciate the presence of our distinguished 
witnesses representing the various agencies of the Federal 
Government.
    My good friend and ranking member of this subcommittee, the 
gentleman from Illinois, will be here later so I will go ahead 
and begin our hearing this afternoon with my opening statement.
    From 1946 to 1958--that is, for some 12 years--the United 
States conducted 67 nuclear tests in the Marshall Islands in 
the atmosphere, on the surface and even below the surface to 
further our national security interests. Those tests destroyed 
the homes and the lives of hundreds of Marshallese people whose 
islands remained part of the U.S.-administered Trust Territory 
of the Pacific Islands.
    Following World War II, the United States unilaterally 
declared these islands of Micronesia to be a strategic trust. 
Whether or not the United Nations liked it, we grabbed the 
islands and said they were ours. Today, more than half a 
century later, the people of the Republic of the Marshall 
Islands still await adequate redress from the United States for 
the harm they suffered.
    The United States accepted responsibility for the problems 
caused by the tests in 1986 when the Republic of the Marshall 
Islands entered into a Compact of Free Association with the 
United States. Of particular interest to me is the provision of 
section 177 of the Compact of Free Association, which makes it 
very clear that the United States recognizes its 
responsibility, and I quote, ``To address past, present and 
future consequences of the nuclear testing program, including 
the resolution of the resultant claims.''
    Afterwards, the United States authorized $150 million under 
section 177 and additional ex gratia assistance under sections 
103, 105 and 224 of the compact to settle claims as determined 
by the Nuclear Claims Tribunal. Under the compact, the Republic 
of the Marshall Islands could also seek additional compensation 
if changed circumstances rendered the settlement manifestly 
inadequate.
    The Nuclear Claims Tribunal determined a settlement 
amounting to about $2.2 billion. Yet, because the fund created 
to cover the Nuclear Claims Tribunal recommendation proved 
grossly inadequate, less than $4 million has actually been 
awarded.
    When the Republic of the Marshall Islands filed a change-
of-circumstances petition to gain appropriate compensation from 
Congress, the previous administrations either never bothered to 
address the problem or simply opposed the petition based on 
their contention that the settlement provided in the compact 
was full and final.
    No further action was taken on the petition. And just last 
month, in response to a suit for just compensation filed by the 
people of Bikini and Enewetak in the U.S. Court of Claims, the 
Supreme Court declined to review the case, upholding the lower 
court's dismissal of the suit.
    In my opinion, this lack of action by the United States 
became especially salient when earlier this month the 
President's cancer panel concluded,

        ``The United States has not met its obligation to 
        provide for ongoing health needs of the people of the 
        Republic of the Marshall Islands resulting from 
        radiation exposure they received during U.S. nuclear 
        weapons testing in the Pacific from 1946 to 1958.''

    The panel went on to recommend to President Obama,

        ``The United States Government should honor and make 
        payments according to the judgment of the Marshall 
        Islands Tribunal.''

Unless that recommendation is followed, options may be limited 
to a congressional reference case, which we will discuss today, 
though I hope this hearing also helps to spur other good ideas.
    Another key issue we will discuss today is a recent rush to 
move the people of Rongelap back to their atoll before it is 
fully safe to return, in the shadow of a shameful history of 
previous attempts to resettle the Marshallese people on their 
contaminated islands.
    As detailed in a series of important articles by Thomas 
Maier in Newsday last year, the people of Rongelap were 
resettled on their land in 1957, until they fled in 1985, 
because the doctors from Brookhaven National Labs who treated 
them allowed their primary responsibility of addressing medical 
concerns of the Marshallese to be trumped by the goal of 
studying the effects of nuclear radiation on the human body.
    In other words, these doctors, these so-called experts from 
Brookhaven Lab, spent more time studying the effects of nuclear 
exposure and contamination on the Marshallese people than 
actually giving them proper medical treatment. This is 
absolutely shameful and without justification. How could these 
doctors abandon their most consequential responsibility?
    I believe that in 1956, a statement made by Mr. Merrill 
Eisenbud, a senior Atomic Energy Commission official, regarding 
information that might be gleaned in resettling the Marshallese 
people is revealing:

        ``Now, data of this type has never been available, and 
        while it is true that these people do not live the way 
        that Westerners do, civilized people, it is nonetheless 
        also true that they are more like us than the mice.''

This is M-I-C-E, mice.
    The United States has obviously made dramatic progress in 
reducing such blatant racism over the past half century, but 
when it comes to the people of the Marshall Islands, in my 
humble opinion, our failure to treat them justly, to honor 
their sacrifices and now to push them to return to contaminated 
lands harkens to an uglier period in our history.
    The United States continues to ignore and, with 
indifference, allow the squalid and horrible living conditions 
of some 12,000 Marshallese men, women and children who 
currently live on this tiny island called Ebeye. Only 66 acres 
of land are currently inhabited by these 12,000 people in order 
to allow the U.S. Government to operate its missile testing 
facility on the nearby island of Kwajalein.
    I just wanted to give an idea to our friends of what it 
means for 12,000 people to live on 66 acres of land. We made a 
little comparative view. Guttenberg, New Jersey, is part of the 
New York City Metropolitan Area with a population density of 
56,012 people per square mile. It is the most densely populated 
incorporated place in the United States and has over twice the 
density of New York City, which has some 26,403 people per 
square mile.
    This means that the 12,000 people living on 66 acres of 
this little tiny island, Ebeye, is equivalent to a population 
density of approximately 116,364 people per square mile. This 
is more than twice the density of Guttenberg, the most densely 
populated city in the United States.
    The United States regards the Ronald Reagan Ballistic 
Missile Defense Test Site on Kwajalein Island as vital to our 
national security. Yet our Government did not meet the most 
basic needs of the displaced Marshallese people as we built the 
facilities. We need to do better for the people of Kwajalein, 
just as we need to do better for the Marshallese people harmed 
as a result of our nuclear testing program.
    I hope that today's hearing and briefing moves us toward 
meeting our obligations and keeping our promises. We have a new 
administration in office, one that is committed to reducing the 
threat posed by nuclear weapons and addressing their broadest 
impacts. I think it is particularly appropriate, then, that we 
convene this morning just after the Obama administration's 
``nuclear spring,'' and while the Review Conference of the 
Nonproliferation Nuclear Treaty proceeds.
    To his credit, President Obama has done more in the past 2 
months to advance the goal of a nuclear weapons-free world than 
his predecessors did over the previous 30 years. President 
Obama's important accomplishments--devising a new U.S. Nuclear 
strategy, completing a nuclear arms control agreement with 
Russia, convening the nuclear security summit agreement and 
supporting the South Pacific Nuclear Weapons Free Zone Treaty--
deserve our support and appreciation. But if we are to address 
the full range of problems posed by nuclear weapons, we must 
also deal with the tragic legacy of our nuclear tests in the 
Marshall Islands.
    Towards that end, I commend Chairman Bingaman of the Senate 
Energy and Natural Resources Committee, and the senior ranking 
member, Senator Lisa Murkowski, for their interest and 
leadership in working to assist the Republic of the Marshall 
Islands through legislation that would provide supplemental 
compensation for the impacts of nuclear testing.
    They introduced Senate bill 2941, which would create a 
health care program at affected atolls, require periodic 
surveys of radiological conditions on Runit Island as well as a 
National Academy of Science assessment of the health impacts of 
the testing program. It would also mandate that the Republic of 
the Marshall Islands' citizens receive the same treatment as 
U.S. citizens working in our nuclear weapons programs. These 
are all important matters that should be pursued.
    It is my understanding that at yesterday's Senate hearing, 
the Department of the Interior indicated it did not support the 
$2 million authorization in the proposed Senate bill. Perhaps 
our friends from the Office of Insular Affairs of the 
Department of the Interior will care to elaborate further on 
this issue.
    Ladies and gentlemen, the people of the Marshall Islands 
have literally sacrificed their lives, their properties, their 
islands. And even more critically profound, as a result of our 
Government's nuclear testing program, we caused tremendous 
suffering among Marshallese men, women, and children due to 
severe exposure to nuclear radioactive fallout. Women gave 
birth to monstrous looking babies with no legs, no arms, one 
eye and high incidences of leukemia and thyroid cancer. It goes 
on and on. They still have not been given proper treatment.
    It is my humble opinion that our Nation owes these people 
much better treatment than we have given them. This isn't about 
money. It is about the character of the American people and 
their leaders and the will to do the right thing. It is about 
equity and fairness for the sacrifices the Marshallese people 
made for the success of our country's nuclear testing program. 
That was very important and critical for our national defense 
at that time against the nuclear capabilities of the former 
Soviet Union.
    So, with that said, ladies and gentlemen, I purposely wore 
this tie to this meeting. It has a lot of meaning. It was given 
to me by my dear friend, a member of the Oneida Nation of the 
American Indian Tribe. I am an adopted member of the Bear Clan. 
That is why I have the claw of the bear. Hopefully, I am not 
going to claw anybody here this afternoon.
    This is not an adversarial proceeding. I am looking forward 
to the statements and also the testimony that will be given 
today. We have a long list of witnesses to testify at our 
hearing this afternoon and I want to say again how deeply I 
appreciate your willingness to take the time to come and be 
with us to make this hearing a successful one.
    [The prepared statement of Mr. Faleomavaega follows:]


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. For our first panel this afternoon, we 
are very pleased to have with us Ms. Frankie Reed, the Deputy 
Assistant Secretary of the Bureau of East Asian and Pacific 
Affairs of the Department of State.
    I have known Ms. Reed for a number of years. She formerly 
served as a Charges d'Affaires for the State Department to the 
Independent State of Samoa years ago. Now she is the newly-
appointed Deputy Assistant Secretary to the Pacific.
    Secretary Reed is very familiar with the Pacific region. 
She served as a diplomat in residence at the University of 
California at Berkeley, where she lectured and was also 
responsible for outreach programs at the University of the 
Pacific Northwest. Ms. Reed was also counsel general and deputy 
U.S. observer to the Council of Europe and the European Court 
of Human Rights in Strasbourg, France. She served as deputy 
chief of mission in Conakry, Guinea, and as deputy chief of 
mission in Apia, Samoa. Ms. Reed also served as a Pearson 
fellow, formerly on the staff of the current chairman of the 
Foreign Affairs Committee, Chairman Howard Berman.
    Ms. Reed is a member of the California Bar Association. She 
received her juris doctorate degree from the University of 
California at Berkeley and a bachelor's in journalism from 
Howard University. She has a very impressive background and 
experience, I might say. I want to thank Ms. Reed for being 
with us this afternoon.
    Also with us as a member of the panel is Mr. Nikolao Pula. 
Mr. Pula is the first Pacific Islander of Samoan ancestry ever 
to serve as the director of the Office of Insular Affairs and, 
in that position, Mr. Pula advises the Secretary of the 
Interior on operational and administrative matters involving 
Federal policies in insular affairs.
    Before coming to the Department of the Interior, Mr. Pula 
worked for 11 years on Capitol Hill for Senator Daniel Inouye, 
former Congressman Fofo Sunia and also served as a staff member 
on the House Committee on Public Works and Transportation. A 
graduate of Marist School in American Samoa, he also studied at 
Brigham Young University in Provo, Utah, and at George Mason 
University. I am very happy to welcome Mr. Pula.
    With us also as a member of the panel is Dr. Steven 
Messervy, deputy to the commander for research, development and 
acquisition at the Department of Defense.
    Dr. Messervy is deputy to the commanding general for 
research at the U.S. Army Space and Missile Defense Command, 
Armed Forces Strategic Command, located at Redstone Arsenal in 
Alabama. That is quite a distance from the Kwajalein missile 
base, but I assume that you have a good relationship with the 
Kwajalein missile base.
    He has more than 30 years of experience in the research, 
development and acquisition business. His doctorate is in 
systems engineering and operations research. He is a graduate 
of the Defense Systems Management College program of the U.S. 
Army Command and General Staff College. He is also recipient of 
many awards, including the decorations--my gosh, there are so 
many, I don't have enough time to read them.
    I want to welcome Dr. Messervy today.
    Also with us is Glenn Podonsky with the Department of 
Energy. Mr. Podonsky is the chief health, safety, and security 
officer. He reports directly to the Office of the Secretary of 
Energy and manages the major staff organizations responsible 
for health, safety and security policy development. He is also 
responsible for independent oversight of the environmental 
safety and health safeguard security. I am glad you are here, 
Mr. Podonsky. I have a lot of questions to ask you on this.
    Mr. Podonsky, we welcome you and look forward to hearing 
your testimony.
    Also with us this afternoon is my distinguished colleague 
and chairman of our Subcommittee of Foreign Affairs on the 
Middle East and South Asia, my good friend, the gentleman from 
New York, Mr. Ackerman. I would like to give him time for his 
opening statement, if he has one.
    Mr. Ackerman. Thank you very much, Mr. Chairman. It is good 
to be with you.
    Today's hearing addresses a set of issues that are marked 
by both clear absolutes and awkward ambiguity. The detonation 
of a hydrogen bomb is as absolute an act as can be imagined. 
American nuclear tests literally vaporized entire islands in 
the Pacific, and the reason for these tests were obvious. The 
Soviet Union posed a clear and present danger to the United 
States and the world. Nuclear arms were thought to be the key 
to peace following the unprecedented blood-letting of World War 
II. We not only thought we were in the right, but we felt 
compelled by duty to provide for the defense of ourselves and 
for others. But behind the absolutes were shades of gray and 
sometimes the darkness of unaccountable and unfeeling 
government agents rationalizing what they knew to be wrong, or 
should have known.
    The United States made promises to the people of the 
Marshall Islands on the basis of science it didn't understand 
and medical judgments that were, at best, poorly educated 
guesses. Contracts and agreements and commitments and promises 
rife with certainty and conviction collapsed and failed in the 
aftermath of radioactive fallout and contamination.
    On an island far away where I was born and have lived all 
my life, doctors from the Brookhaven National Laboratory on 
Long Island, working under contract for the United States, 
assured 250 people that it was safe to return home to Rongelap. 
What the doctors didn't mention was that the island was still 
highly radioactive.
    In the midst of the Cold War it was easy to rationalize. We 
were in danger. We needed to know what these new weapons of 
unprecedented power could do. We had to know how to survive 
exposure to radiation in the event of a nuclear attack. But in 
the end, government officials employed to work for the public 
good, and medical doctors who took an oath to do no harm, sent 
innocent people to live in the cancer incubation ward of a 
radioactive danger zone.
    The people of the Marshall Islands were treated with 
contempt, like guinea pigs. There is no denying the 
responsibility of the United States for this treatment. We 
tested those nuclear weapons. We irradiated those islands. And, 
in the end, we bear the responsibility for providing for the 
people who were displaced or injured by our actions.
    The people of Rongelap suffered a 9 percent increase in the 
cancer rate. That is over 530 cancer victims that can be linked 
to U.S. nuclear tests. Their suffering and ill health were bad 
enough, but were astonishingly compounded by a bureaucratic and 
medical indifference that would make Franz Kafka weep.
    Consider the medical treatment the Marshallese received. 
All 250 of them were given identification numbers and pictures 
were taken, many of them naked, to be kept on record for the 
effects of radiation. Exams were d1 yearly, each time with more 
pictures and more samples of blood and urine. But never were 
the 250 people whose lives and health were in jeopardy told how 
severe was their risk as we cooked them in a nuclear soup that 
we tested every year.
    In 2007, the Marshall Islands Nuclear Claims Tribunal, 
established by the United States until 1988, ruled that the 
residents of the island will were owed $1 billion in damage 
awards because of the radioactive fallout that contaminated the 
island and sickened the residents. The Bush White House refused 
to pay the claim. The U.S. courts have washed their hands of 
the matter. What will the Obama administration do? What will we 
do? Are we absolved?
    On the one hand, the United States has provided medical 
care and spent some $500 million on construction and clearing 
projects. On the other hand, the responsibility for the loss, 
all the pain, all the illness caused by the nuclear tests, lies 
with the United States. And in the end, trying isn't enough. In 
the end, apologizing isn't enough. There may be no justice in a 
case like this one. But it does not preclude the United States 
accepting responsibility for what it did and carrying that 
responsibility through until the last legitimate claim is 
satisfied.
    We do not hesitate to shame those who delay compensation to 
victims of Nazi atrocities until they die off or their ranks 
thin down. Here in this case, without question, there is great 
shame on us. We took the weak and powerless and made them sick 
and helpless. And, in the end--if that is the end--it is not a 
story about them, it is more a story about us.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Ackerman follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. I thank the gentleman for his most 
eloquent and profound statement concerning what we are talking 
about this afternoon.
    As I stated earlier, this is not about money. This is 
really a challenge to the character of our Nation, of the 
American people and of our leaders to do what is right and to 
correct the mistakes that we have made in the past and make 
whole our promises to the people of the Marshall Islands.
    I just wanted to share a little bit. I will get to my good 
friend from Arizona, but this is in reference to the first 
hydrogen bomb that was exploded in 1954, the first ever in the 
history of the world. The sad part about it is as I read from 
the records--and that was indicated and verified--was the fact 
that, as they were planning for the explosion of this hydrogen 
bomb, the winds had shifted. The administrators, the scientists 
and the people responsible for that project knew that the winds 
had shifted, and yet they went ahead and exploded the bomb.
    The explosion of this hydrogen bomb was, according to 
reports, 1,300 times more powerful than the bombs that we 
exploded at Nagasaki and Hiroshima against Japan during World 
War II. I just want to share personal experiences, and I have 
here a book that is probably one of the best written books, I 
think. It is called ``Day of Two Suns'' by Jane Dibblin. She 
went and recorded the personal testimonies of some of the 
victims exposed to this explosion in 1954.
    It says that one of these people who was there said that he 
was 14 years old at the time, his sister was 12.

          ``The teacher asked us--my sister and I and our two 
        cousins--to cook some rice for the other children. We 
        got ready to do it. Then we saw a bright light and 
        heard a sound. Boom. We were really scared.
          ``At that time, we had no idea what it was. After 
        noon, something powdery fell from the sky. Only later 
        we were told it was fallout. Hiroko and several cousins 
        went to our village at the end of Rongelap Island to 
        gather some sprouted coconuts. Our cousin climbed a 
        coconut tree and got something in her eyes. So we we 
        sent another one up. The same thing happened to her. 
        When we got home, ours was the main village on 
        Rongelap, it was raining. We saw something on the 
        leaves, something yellow. Our parents asked, What 
        happened to your hair? It looked like we rubbed soap 
        powder all over it. That night we couldn't sleep. Our 
        skin itched so much and on our own feet burned, as if 
        it was hot water. Our hair fell out and we would look 
        at each other and laugh: You are bald, you look like an 
        old man. But really we were frightened and sad.''

    I could go on and on, but I just wanted to share and give a 
little sense of human experience as to what happened on that 
dreadful day when the hydrogen bomb exploded.
    I might also mention to my good friends and colleagues that 
the reason why we decided not to continue our nuclear testing 
program in the Marshall Islands was because of the nuclear 
fallout. Fifty thousand square miles--this is how far these 
nuclear clouds traveled. Some of them came right across the 
United States and fell. Strontium-90 was found in the milk 
products of the States of Wisconsin and Minnesota.
    So they said, oh boy, we better do something else. That is 
what motivated us to say we better change the place where we 
are going to have our nuclear testing. So we ended up going to 
Nevada and tested about 1,000 more nuclear bombs, this time 
underground, but still very deadly.
    I am very happy to have my good friends and colleagues 
joining us.
    I recognize the gentleman from Arizona, Mr. Flake, for his 
opening statement, if he has one.
    Mr. Flake. I have no prepared opening statement. I thank 
the chairman for having this hearing. I am anxious to hear the 
witnesses. I want to thank the Marshallese delegation that is 
here. I met with them yesterday in my office.
    I have developed a soft spot for the Marshall Islands. As 
many of you know, I spent 1 week there last August on a little 
island in the Kwajalein atoll and enjoyed my experience 
immeasurably there. I was treated very well by the Marshallese 
people, both coming and going.
    So I want to thank the chairman for holding this hearing, 
and look forward to the witnesses. Thank you.
    Mr. Faleomavaega. I want to note for the record that my 
colleague from Arizona wanted to experience what it means to 
live on a lonely island by himself, so he decided to go to the 
Marshall Islands. It is a miracle he came back alive. He wanted 
to be out there by himself, nobody else, no telephones, no 
washing machines, nothing. He lived about 1 week, I believe, by 
himself, catching fish and eating coconuts, just like a native. 
Congratulations to my good friend from Arizona.
    The gentleman from California, Mr. Rohrabacher, for his 
opening statement.
    Mr. Rohrabacher. Let me note after Mr. Flake had that 
experience of eating coconuts and living there on that island, 
he still remained a Republican.
    It is my honor to be here today and I am very happy that 
our schedules happened to mesh, because it is a very busy day. 
But we should not be too busy for the people of the Marshall 
Islands. They are a small group of people, but they represent 
something vitally important to the United States. They 
represent whether or not the United States takes its 
commitments seriously, whether or not the United States can be 
a trusted friend, whether the United States will keep its word.
    The Marshall Islands were more than good friends to us. 
They were incredibly generous to the people of the United 
States at a time when we really needed it. What I am talking 
about is the time during the Cold War when the outcome of the 
Cold War was totally in question and the Russians had detonated 
nuclear weapons and they were ahead of us in terms of advanced 
rocketry.
    The people of the Marshall Islands not only permitted us, 
but joined with us and became partners with us in the 
development of those weapons systems during the Cold War, which 
I believe deterred a nuclear conflagration between the great 
powers, which would have resulted in an historic setback for 
all of humanity. One can only imagine if indeed we did not 
develop those weapons which deterred that war and we would have 
slipped into some kind of a conflagration, what it would have 
done to the future of the human race.
    The small group of people that permitted us that knowledge 
and that ability to develop those technologies were the people 
of the Marshall Islands. And if we go even today to the 
Marshall Islands, you will find that even to this day, those 
people are hosting an American effort to develop our 
antimissile defense systems, and have been for the last 10 to 
20 years.
    That is of incalculable value to us. If we have, Mr. 
Chairman, an antimissile system, that if some lunatic from 
North Korea someday launches a rocket toward Hawaii or even 
toward the West Coast of the United States, if we are able to 
knock it down, the first people we should thank are the people 
of the Marshall Islands who permitted us to test our systems 
there and permitted us the ability to develop such 
technologies. So we have a lot to thank them for.
    There is, of course, more than a debt of gratitude. There 
is a debt of making sure that those people who suffered from 
these tests in the past are dealt with fairly and we keep our 
word. I certainly am anxious to work with you, Mr. Chairman, to 
make sure that those people understand our gratitude and we do 
what is right.
    Thank you very much.
    Mr. Faleomavaega. I thank the gentleman from California for 
his most eloquent statement, and thank both of our friends on 
the Republican side for their attendance and their interest in 
this issue.
    We will now have our friends here, the witnesses, testify. 
Secretary Reed.

 STATEMENT OF MS. FRANKIE A. REED, DEPUTY ASSISTANT SECRETARY, 
 BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Ms. Reed. Thank you, Mr. Chairman, and members of the 
committee. I am honored to appear before you today as Deputy 
Assistant Secretary of State for East Asia and Pacific Affairs. 
The United States and the Marshall Islands have a close and 
special relationship dating back to shortly after the end of 
the Second World War when the Marshall Islands became part of 
the U.N. Trust Territory of the Pacific Islands under the 
administration of the United States.
    In 1986, the Republic of the Marshall Islands gained full 
independence and entered into a Compact of Free Association 
with the United States. The compact, which was amended in 2003, 
provides the framework for much of our bilateral relations, and 
its provisions ensure the security of the Marshall Islands and 
contribute to the security of the United States.
    Since achieving independence, the Marshall Islands has 
developed its own style of democracy and has proved itself a 
steadfast friend and supporter of the United States. Its 
government has an excellent voting affinity with the United 
States in the United Nations, and shares our position on other 
important international issues.
    Many Marshallese citizens are bravely in American military 
units conducting operations in Afghanistan, Iraq and elsewhere. 
In December 2008, U.S. Army Staff Sergeant Solomon T. Sam, a 
young Marshallese serving in Mosul, Iraq, was killed by wounds 
sustained from an improvised explosive device. We salute all of 
these Marshallese members and their families' heroism and 
sacrifice for the cause of building a more secure world.
    The Marshall Islands is host to some 2,000 Americans who 
work along with about 900 Marshallese at the strategically 
important U.S. Army Ronald Reagan Ballistic Missile Defense 
test site at Kwajalein Atoll. Known as USAKA, the base is the 
second largest employer in the Marshall Islands, after the 
Republic of the Marshall Islands Government.
    The combination of payroll taxes paid by Marshallese 
American contract employees and other workers account for about 
25 percent of the Marshall Islands' total revenue collections 
each year. USAKA also engages in regular humanitarian and 
development projects on Kwajalein Atoll.
    The United States and the Marshall Islands also has an 
important economic relationship. The United States is the 
Marshall Islands' largest trading partner. Under the compact, 
as amended, the United States provides over $60 million in aid 
to the Marshall Islands annually.
    U.S. Federal agencies operate 22 different government 
programs in the Marshall Islands. We at the Department of State 
work closely with all of these agencies, but we have a special 
working relationship with our colleagues at the Department of 
the Interior Office of Insular Affairs, which has primary 
responsibility for implementing the compact's economic 
provisions to ensure that assistance efforts are appropriately 
coordinated and implemented with transparency and 
accountability.
    The amended compact includes a trust fund mechanism that 
will serve as a resource base to the Marshall Islands after 
annual grant assistance expires in 2023. One of our greatest 
challenges in our relationship is to promote economic 
development that will contribute to the long-term financial 
self-sufficiency of the Marshall Islands.
    We enjoy a unique and positive relationship with the 
Marshall Islands, and we are working to see that the interests 
of the U.S. Government are advanced, while working in concert 
with the expressed interests of the Marshallese Government and 
its people. Additionally, I believe that coordination between 
the U.S. executive and legislative branches is important to 
this endeavor, and I am grateful for this opportunity to speak 
with you today.
    I would be glad to respond to any questions you may have. 
Thank you.
    [The prepared statement of Ms. Reed follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. Thank you, Secretary.
    Mr. Nick Pula from the Office of Insular Affairs.

  STATEMENT OF MR. NIKOLAO PULA, DIRECTOR, OFFICE OF INSULAR 
            AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Pula. Thank you, Mr. Chairman and members of the 
subcommittee. Thank you for the opportunity to discuss the 
United States' relationship with the Republic of the Marshall 
Islands.
    The United States entered into a Compact of Free 
Association in 1986. In 2003, the amended compact provided a 
total of $1.5 billion in mandatory assistance from 2004 through 
2023. Under the amended compact, U.S. Grant funding generally 
decreases annually, paired with increasing contributions to a 
trust fund established for the RMI. Earnings from the trust 
fund are intended to provide a source of revenue for the 
Government of the RMI when grants expire in 2023.
    The amended compact requires the RMI to target funding to 
six development sectors--education, health, the environment, 
public sector capacity building, private sector development and 
infrastructure, with priority given to education, health and 
infrastructure.
    The compact and its subsidiary agreement on fiscal 
procedures require the U.S.-RMI Joint Economic Management and 
Joint Financial Accountability Committee, known as JEMFAC, to, 
one, meet at least once annually to evaluate the progress of 
the RMI in achieving the objectives specified in the 
development plans; two, approve grant allocations; three, 
review required annual reports; four, identify problems; and, 
five, recommend ways to increase the effectiveness of compact 
grant assistance.
    With regard to public sector infrastructure, JEMFAC has 
allocated approximately $77 million for the public sector 
infrastructure since 2004. The use of these funds by the RMI 
has been well planned, professionally managed, and targeted on 
the priority sectors of health and education. Sixty percent of 
the 13,000 students are now enjoying new facilities.
    Regarding education, it must be said that despite the 
significant amount of resources provided for support of the 
education sector, performance results have been less than 
satisfactory. According to the compact, emphasis should be 
placed on advancing a quality basic education system. For the 
most part, the education sector funds cover salaries and 
operations.
    Affecting the sustainability of education systems are 
politically popular efforts to implement school meal programs 
and provide transportation to and from school. Food and ground 
transportation are increasingly expensive, and, if continued 
with compact funding, these services will take increasing 
amounts of money away from basic classroom teaching.
    Regarding health, the need to strengthen preventive and 
primary care and shift emphasis away from secondary and 
tertiary care has been been recognized by the RMI and health 
leaders. But due to high incidences of chronic disease, notably 
diabetes, the RMI's population requires a higher level of sick 
care than the typical patient population.
    As the amended compact moves into its 7th year, annual 
decrements or decreases in funding mean that funds available to 
the health sector will diminish.
    An important element of the U.S. financial assistance is 
the trust fund established to contribute a source of revenue to 
the RMI when annual sector grants cease after 2023. As of March 
31, 2010, the market value of total assets of the trust fund 
for the people of the Republic of the Marshall Islands was $108 
million. The trust fund sustained losses in 2008. Since then, 
most of the losses have been recovered.
    The RMI is in a tight fiscal position. Some of the issues 
include doubled government payrolls since 2000, growing level 
of subsidies and capital transfers to the state-owned 
enterprises, and difficulty in serving debt payments. Fiscal 
reform is imperative.
    To its credit, the RMI has created two commissions and 
committees to propose public sector reform. These are steps in 
the right direction. The Office of Insular Affairs is fully 
prepared to provide support to restructuring efforts.
    With regard to Rongelap, the Office of Insular Affairs 
carries out a congressionally mandated role in exercising its 
necessary right of veto over the use by the Rongelap Atoll 
local government, or RALGov, of its resettlement trust fund. 
This past March 30th, the mayor of RALGov council members 
adopted resolutions committing themselves to the following: 
One, moving from Mejatto Island by October 1, 2011; two, using 
approximately $7 million to resettle Rongelap Island; and, 
three, leaving $10 million in the trust fund's corpus to 
maintain RALGov's operations after October 1, 2011.
    Once all those who choose to go home have done so, the 
resettlement trust fund can be used to carry out resettlement 
and to assure the resettlement succeeds.
    Regarding Enewetak, the United States and RMI settled all 
claims--past, present and future--of the government and 
citizens of the Marshall Islands, which are in a way related to 
the U.S. nuclear weapons testing program. Nevertheless, Runit 
Dome remains a point of friction.
    Upon request, the Department of Energy staff have from time 
to time performed limited environmental sampling at Runit 
Island around Runit Dome. However, the Congress has never 
assigned the Department of Energy or any other Federal agency 
or department the responsibility to maintain surveillance of 
the radiological conditions on Runit Island.
    Despite issues of concern that arise for both the 
Government of the Marshall Islands and the Government of the 
United States, we anticipate a continuation of relatively good 
relations between the two nations.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Pula follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. Thank you.
    Dr. Messervy.

 STATEMENT OF STEVEN MESSERVY, PH.D., DEPUTY TO THE COMMANDING 
 GENERAL FOR RESEARCH, DEVELOPMENT, AND ACQUISITION, U.S. ARMY 
 SPACE AND MISSILE DEFENSE COMMAND, U.S. DEPARTMENT OF DEFENSE

    Mr. Messervy. Thank you, Mr. Chairman, Ranking Member, 
members of the committee. Thank you for the opportunity to 
appear before this panel.
    Along with the other panel members, my role here today is 
to provide some insight and answer your questions regarding the 
missions of the United States Army Kwajalein Atoll and Ronald 
Reagan Ballistic Missile Test Site, commonly referred to in the 
Army as USAKA/RTS. The USAKA/RTS installation and test range 
falls under the operational control of the United States Army 
Space and Missile Defense Command/Army Forces Strategic Command 
(U.S. Army SMDC/ARSTRAT).
    I serve as the deputy to the commander for research, 
development, and acquisition at the U.S. Army SMDC/ARSTRAT. In 
this role, my primary duties and responsibilities include 
overseeing the basic and applied technology development efforts 
in the Army Space and Missile Defense Initiatives. Within my 
assigned responsibilities, management and operation of USAKA/
RTS is also under my purview. My appearance before you today is 
primary to outline the operational missions performed by USAKA/
RTS on Kwajalein Atoll in the Republic of the Marshall Islands 
(RMI).
    As you are aware, Kwajalein is the world's largest coral 
atoll, surrounded by the world's largest lagoon. Eleven of the 
approximately 100 islands comprising the atoll are designated 
as defense sites and are provided to the U.S. Government to use 
for defense purposes by an international executive agreement 
known, of course, as the Compact of Free Association.
    Sophisticated instrumentation and launch equipment are 
located on eight of these islands and provide mission support 
and reliable data for ballistic missile and missile interceptor 
testing, space launch and operations support. Its isolated 
location uniquely qualifies the Reagan Test Site for supporting 
rigorous and realistic tests of all missile classes and 
intercept scenarios, as well as space operations.
    Installation capabilities support the range's test and 
development operations with essential services normally found 
in a community of about 1,700 people. USAKA employs about 1,000 
Marshallese local nationals who make important contributions to 
the success of Reagan Test Site operations.
    Officially established as a test site in October 1960, the 
range was transferred to U.S. Army control in July 1964. When 
the RMI was granted independence in 1986, Kwajalein remained an 
American military enclave.
    USAKA/RTS is approaching half a century of successfully 
supporting ballistic missile testing and has more than 20 
years' experience of space operations. USAKA and RTS support 
three mission areas that are vital to the success of the U.S. 
ballistic missile defense and space programs.
    The first is space operations. RTS supports the U.S. Army's 
space mission, the U.S. Air Force, National Aeronautical and 
Space Administration (NASA), space transportation system 
operations and experiments in both Department of Defense (DoD) 
and non-DoD satellite launches.
    As part of USAKA/RSTRAT's support to the U.S. Strategic 
Command, RTS conducts space object identification and provides 
critical coverage on new foreign launches coming from Asia. Its 
radars support deep space surveillance and contribute near-
Earth satellite observations for the space surveillance 
network.
    Given the increasing problem with what is termed as space 
junk, or fragments of objects destroyed in space which have 
remained in orbit, the range's tracking capability has been key 
in predicting possible collisions with U.S. orbiting 
satellites.
    The second area is missile testing. RTS has supported the 
Missile Defense Agency's long-range, ground-based, mid-course 
defense program, as well as various theater missile defense 
systems. RTS has also supported U.S. Air Force intercontinental 
ballistic missile testing.
    RTS supports lagoon impacts, where the reentry vehicles and 
test articles needed to be recovered, and impacts into the deep 
ocean area. Air Force hypersonic technology testing and air 
crew training missions are planned to begin at RTS in the near 
future.
    The third area is space launch. From its position at 9 
degrees latitude above the Equator, the Reagan Test Site is a 
prime geographical launch site for both low Earth and 
geosynchronous orbits. Since 2000, RTS has supported space 
launches by Orbital Sciences and Space Exploration Technologies 
Corporation, known as Space-Ex.
    Mr. Chairman and members of the committee, SMDC/ARSTRAT 
recognizes the role USAKA/RTS has performed in the defense of 
our Nation. Its missions of space operations, missile testing, 
and launch operations have provided the U.S. with valuable 
information and advancements, and we foresee it continuing to 
play a key role for the Army, the Department of Defense, and 
other government agencies and our Nation.
    I appreciate the opportunity to speak on these matters, and 
request that my written statement be submitted for the record. 
I look forward to addressing any questions you might have 
concerning the mission aspects of the Reagan Test Site.
    Thank you.
    [The prepared statement of Mr. Messervy follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. Thank you.
    Mr. Podonsky.

 STATEMENT OF MR. GLENN S. PODONSKY, CHIEF HEALTH, SAFETY AND 
 SECURITY OFFICER, OFFICE OF HEALTH, SAFETY AND SECURITY, U.S. 
                      DEPARTMENT OF ENERGY

    Mr. Podonsky. Thank you, Mr. Chairman and members of the 
subcommittee. I want to tell you I appreciate being invited 
here today to discuss the status of the U.S. Department of 
Energy's special medical care program in the Republic of the 
Marshall Islands.
    The responsibility for the day-to-day management and 
operations of the congressionally mandated DOE Marshall Islands 
Special Medical Care Program rests within the Department of 
Energy's Office of Health, Safety and Security.
    I am here to reaffirm the DOE's unwavering commitment to 
the successful execution of the program's mandates as 
established by the Congress. All of us who are involved in 
managing the Republic of the Marshall Islands program are 
mindful of our enormous moral and humanitarian responsibility 
that this demands.
    My office assumed operational responsibility for the 
program 4 years ago to ensure that your mandates are carried 
out with the professionalism and the compassion they rightfully 
deserve.
    It is a unique program that is responsible for the well-
being of Marshallese through delivering high-quality patient 
care while coordinating logistics, transportation, and 
environmental monitoring which provides scientific data to 
support informed decisions regarding resettlements.
    Our focus is to provide a program that is responsive to the 
needs of the beneficiaries and is sustainable over their 
lifetime. Our medical program is carried out through nationally 
recognized medical organizations with access to a large network 
of clinics and physicians that staff the Marshall Islands' 
clinics and manage the annual examinations conducted throughout 
the year.
    Cancer treatment is provided for all patients needing such 
treatment, including those living in Hawaii and in the 
continental United States, with care provided close to their 
residence.
    We are pleased that all of the eligible patients in 2009 
that wanted to participate in the program have received their 
annual comprehensive examinations. Their average age is 65 
years, and they reside in 10 atolls, several islands, and seven 
States within the continental United States and Hawaii.
    The program has safe clinic spaces with modern examination 
equipment and communications on Kwajalein Island and Majuro. 
The clinics are an important factor in improving day-to-day 
lives of the Republic of Marshall Islands citizens. They are 
over 3,000 clinical contacts a year where people call or visit 
with a problem, to get a test, prescription, or to consult with 
medical staff. A third of the contacts are by people outside of 
our program.
    Licensed Marshallese physicians and nurses staff the 
clinics and provide culturally sensitive patient care. We also 
ask the Marshallese doctors to schedule and donate time to the 
hospital when they are not seeing DOE patients.
    Marshallese-operated whole-body counters are strategically 
located for additional screenings. This data provides 
physicians with important information on patient exposure.
    Important work is also taking place under the environmental 
monitoring program that directly benefits the quality of life. 
These activities are closely coupled to the medical care 
program. They provide scientifically credible, objective, and 
peer-reviewed data that the Government of the Marshall Islands 
can confidently factor into its environmental remediation and 
resettlement decisions.
    The logistics and transportation component of the program 
has effectively served its programmatic mission and also plays 
a critical role in fulfilling humanitarian missions. Recently, 
during the severe drought in Utrok, we went to extraordinary 
means to obtain transportation for our patients to Majuro and 
Kwajalein for their annual examinations. We also used our 
chartered boat to transport a medical vaccination team, deliver 
water and food, and return some patients that were stranded in 
Majuro back to Utrok.
    To ensure integration of program activities, we instituted 
a transparent system of managing the program. For example, we 
made sure that the review and selection of a new contractor was 
performed in a process involving the Minister of Health, the 
Senator from Utrok Atoll, along with the Mayor of Rongelap and 
internationally recognized experts on health care and 
logistics. All bid packages were provided to panel participants 
to review and comment.
    The terms and conditions of the cooperative agreement we 
have clearly documented and communicated. We hold formal 
biannual program reviews. There is significant hands-on DOE 
management and oversight of day-to-day operations. The DOE 
program manager has substantial involvement and authority and 
program direction to ensure congressional mandates are 
effectively met.
    My respective management team and I have embarked on a more 
aggressive outreach to local communities in partnership with 
the Republic of Marshall Islands Governments. Our DOE Marshall 
Islands program manager holds community events and outreach in 
every community within the continental United States and Hawaii 
and all locations where we have Marshallese patients to inform 
them of any changes to the program and to get feedback directly 
from them in areas where they think improvements are still 
needed.
    Our medical team has also increased the number of community 
visits within the Marshall Islands. The purpose of these visits 
is to provide follow-up medical examinations as needed and to 
discuss questions and issues raised by individuals or the 
community at large. We promptly communicate the feedback 
received from the community to our partners within the 
Government of the Marshall Islands.
    The annual program meeting with the Government of the 
Marshall Islands also provides another forum for us to 
collaboratively discuss and develop strategies and actions to 
improve the delivery of services to our patient population.
    DOE's commitment to fulfill its mandates established by the 
Congress for the Marshall Islands Special Medical Care Program 
is solid. We view our commitments to the Marshall Islands not 
only as a programmatic responsibility but it is a moral 
obligation for a better future for the Marshallese.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The prepared statement of Mr. Podonsky follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. I thank our witnesses for their 
testimony.
    Without objection, all the statements of our witnesses from 
this panel will be made part of the record; and if they have 
any additional miscellaneous materials they want to add on to 
their statements, they will be more than welcome to do so.
    The gentleman from New York for his questions.
    Mr. Ackerman. Thank you very much, and I thank the panel. 
Thank you for the rundown of what we have and have been and 
continue to be providing.
    Madam Secretary, let me start with you, if I may. Could you 
give us the state of play of what the outstanding claims are?
    Ms. Reed. I am sorry. The state of play of the outstanding 
claims? You mean a figure? I am sorry.
    Mr. Faleomavaega. The Nuclear Tribunal's claim. I think 
after their work they wanted to give $2.2 billion in claims for 
the loss of property for all the damage that we caused to the 
Marshallese people. I think that is the starting point of the 
question here. What is the status?
    I think, as a result of that, we basically rejected the 
$2.2 billion that the Tribunal had stated in their records as 
compensation owed to the Marshallese people, right?
    Ms. Reed. Yes, I believe that sums it. In terms of an exact 
figure, I would have to get back to you, but we agree with the 
position I believe that was stated by the Department of 
Interior.
    [The information referred to follows:]
 Written Response Received from Ms. Frankie A. Reed to Question Asked 
          During the Hearing by the Honorable Gary L. Ackerman
    There is no authoritative source that provides a single dollar 
figure for outstanding claims before the Claims Tribunal established by 
the Marshall Islands. However, in estimation the total balance owed on 
property damage awards at $2,284,108,436, plus interest due from the 
dates of the respective awards, for Enewetak, Bikini, Utrik, and 
Rongelap atolls.
    Citing Article IX of the Section 177 Settlement Agreement, the 
Republic of the Marshall Islands (RMI) submitted a ``Changed 
Circumstances'' request to the United States Congress in September 
2000, asserting, and seeking additional compensation and remedies for, 
injuries and losses to the people of the Marshall Islands arising from 
the U.S. nuclear testing program at Enewatak and Bikini atolls from 
1946 to 1958. In its request, the RMI sought over $3 billion in 
additional compensation and assistance for Tribunal awards for personal 
injury claims, for loss of land use and hardship, and for atoll 
rehabilitation, exceeding the amounts provided in the Section 177 
Settlement Agreement, occupational safety, nuclear stewardship, and 
nuclear education.
    At the request of the Senate Energy and Natural Resources 
Committee, the Executive Branch evaluated the RMI's request under the 
Changed Circumstances provision, the Department of State on behalf of 
the Executive Branch submitted a report to Congress in January 2005 
concluding that the issues raised by the RMI did not qualify as changed 
circumstances within the meaning of Article IX of the Section 177 
Settlement Agreement. We do not consider the $3 billion request an 
outstanding claim.

    Mr. Ackerman. And what is that position that we agree with?
    Ms. Reed. That we rejected the claims, and that this is a 
full settlement, has already been negotiated.
    Mr. Ackerman. So what is it now? Remind me. What do we owe 
the people of the Marshall Islands?
    Mr. Pula. I think the 1986 agreement, that was $150 million 
that was paid at the time. Legally, that is the stand of the 
United States regarding this. I don't think I can put a value 
on the claim.
    Mr. Ackerman. What do the people and entities in the 
Marshall Islands think we owe?
    Mr. Pula. Based on the petition that they provided, it was 
over $2 billion.
    Ms. Reed. If I can add, I understand that this is a very 
sensitive and contentious point in terms of I believe what the 
Congressman, if I can summarize a bit, is asking, can we place 
a value on this in terms of the U.S. Government response? And I 
believe that leads to quite a different issue.
    Mr. Ackerman. Well, I think that is the issue. If somebody 
says we owe them $2.2 billion and our point of view is we can't 
place a value on what we owe you, what is it we think we owe 
them? Do we owe them anything besides, hey, good luck guys?
    Ms. Reed. Not at all----
    Mr. Ackerman. Sorry about the cancer and all the bombs and 
all?
    Ms. Reed. I would believe that simply the presentations 
with my colleagues here that we have made today certainly 
affirm, in conjunction with the numerous programs that have 
been in place for many, many years in the Marshall Islands. 
Initially, 10 years ago, I worked with my colleagues in the 
interagency group as we put together an office for the 
negotiations; and some 10 years later I find myself returning 
and looking at a vast array of measures that have been put in 
place.
    Mr. Ackerman. So the status of play is they claim that we 
owe them a couple of billion dollars; and our response is, huh?
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Ackerman. I will yield to anybody. I don't seem to be 
getting any responses.
    Mr. Faleomavaega. I think the point here is that Congress 
had to go back and establish a Nuclear Claims Tribunal.
    These are non-Marshallese, by the way, that served as 
members of the Tribunal. They worked their butts off for years 
taking in the claims. All of that was put together, and the 
best recommendation from the Tribunal was that our Government 
owes these people for their loss of property--loss of islands, 
for that matter--approximately $2.2 billion.
    Then we came back and said, that is outrageous. It is too 
much.
    Mr. Ackerman. Mr. Chairman, I find it astonishing that you 
and I are having a hearing, and there is nobody out there. I 
mean, the lack of even an attempt to really respond to the 
question, when I think you all out there--I think I see some 
people out there. I heard all their testimony. We have it in 
front of us--is that they have these blank looks like they 
don't know what we are talking about. There seems to be an 
unbelievable--arrogance isn't even the right word, that, hey, 
we don't even want to play.
    There is no state of play. You claim you owe us $2.2 
billion, and so what? We are going to just wait for these 
people to die, right, that we have given cancer to, that we 
have taken away their property. We tell them they can reinhabit 
their island. They have to put down fertilizer before they grow 
food or scrape the topsoil away. You have no answers for us? 
Why are you here?
    Mr. Pula. Well, if I may, Congressman, the issue, as 
mentioned by the Deputy Assistant Secretary from State, is, of 
course, everybody knows. There has been a long history of this. 
I mean, we can always go back to the time that the Department 
of Defense, in terms of they did the tests, I mean, the 
Department of State handling diplomatic relations, the 
Department of the Interior taking care of the implementation of 
the Compact, as I testified, and the Department of Energy.
    The four of us who are appearing before you today are here 
based on all the information that has come from the past. In 
response, not for us to look like we don't have any answers, in 
your opening statements, I think we all feel the importance 
that this is not about money.
    Mr. Ackerman. It is about dignity. You got it right.
    Mr. Pula. Absolutely. And when you ask the question, what 
is the value? We responded we can't put a value on these.
    Mr. Ackerman. Well, they have put a value on it. And it 
seems to me that if we know that this is about dignity then 
there has to be something besides, good luck, fellows, with 
whatever few years you might have left.
    And what they are asking, to come up with a real answer. 
They put a value on it. Of course, that doesn't fix the 
problem. You can't unscrew them is the point. But we do 
compensate people for wrongs that we have committed. And to 
tell them they can go to the doctor, we are picking up the tab, 
isn't really the answer.
    It is about dignity. That is what it is. It seems to me 
those people have dignity, and we lack it by pretending that 
they are not even there anymore. I know we are doing some 
stuff, and I know we spent half a billion bucks pretending to 
do the right thing, but they deserve to be compensated, not a 
trial lawyer's thing. I mean, it is a real case here. I mean, 
what we did was inhumane and unconscionable. We know it, don't 
we? Or do we?
    My time is up, Mr. Chairman.
    Mr. Faleomavaega. I thank the gentleman from New York.
    I just want to note for the record that Congress passed the 
Radiation Exposure Compensation Act of 1990. In that act, the 
U.S. Government approved compensation claims of approximately 
$1.5 billion for claimants who were on site at the Nevada 
nuclear test sites, those downwind from the testing, uranium 
mill workers, uranium ore transporters and others working in 
the radioactive mines in Nevada.
    And I am quoting this from my good friend's testimony, Mr. 
Jon Weisgall. We look forward to his testimony.
    The other problem here is what my good friend from New York 
is saying. We compensated people who were exposed to nuclear 
radiation in our own country. In Hanover, Washington, the 
people were compensated $5 billion. So I think the question was 
quite relevant and very simple: How much should we pay?
    The Nuclear Claims Tribunal worked arduously for years to 
bring about some sense of fairness to their recommendation of 
$2.2 billion.
    Former Attorney General Thornburgh made an observation that 
the character and the caliber of those who participated in the 
Nuclear Claims Tribunal was just and unbiased. It was fair and 
it was not inflated. Their judgments were made in terms of 
their hearings--countless hearings and meetings that were held 
with the claimants and the people of the Marshall Islands.
    So I just want to note to my good friend from New York, who 
raised the issue, that we will continue to raise this issue.
    The gentleman from Arizona.
    Mr. Flake. I thank the chairman.
    Can you tell me how many survivors who were there for the 
actual last blast--my understanding is there are a few hundred 
who are still living at this time? Can somebody answer that?
    Mr. Podonsky. Congressman, Glenn Podonsky from the 
Department of Energy. We are responsible for providing medical 
care for what started out as 253 Marshallese, and it is down to 
153 from the original, from the atolls that we were responsible 
for, as spelled out in the legislation.
    Mr. Flake. As far as medical care, I know there was an 
issue just a while ago in Hawaii, the Marshallese who are 
living in Hawaii and had received care in Hawaii under their 
system. There were some cutbacks in Hawaii, and there was a 
fear at least--and this may or may not be related to any of the 
claims or the payments that we are making. Has that issue been 
settled at all, do you know? There was concern for a while that 
their treatment wouldn't be coming.
    Mr. Podonsky. For the population that DOE is responsible 
for, we have had no cutbacks. We have not faltered from our 
commitments on the population that we are responsible for.
    Mr. Flake. In terms of resettlement then, someone was 
mentioning some timetable in terms of some of the resettlement 
that is going to be happening soon. When is the next movement 
going to happen in that regard, Mr. Pula?
    Mr. Pula. Basically, that we were supporting the wishes of 
the Mayor, Matayoshi of Rongelap, and the council. The date 
that has been set or suggested has been I think October 2011 
based on the fiscal year.
    Mr. Flake. October 2011. And approximately how many 
families would that involve?
    Mr. Pula. I think we have to deal with the information that 
we get from the--we can provide that for you.
    In the last several years, there has been some concern of 
the money being depleted in the trust fund, but we wanted to go 
back over 10 years and look at the funds or the trust fund and 
make sure that the intent of it, as was passed by law, that 
they provide to go back to Rongelap, provided it is safe. And 
we have had some meetings--I have been there about 4 years ago, 
5 years ago--with some of the folks in Rongelap.
    Mr. Flake. On the Kwajalein Atoll, when I was there last 
time, you have Kwajalein and then you have Ebeye and then a few 
smaller islands going forward from there. There has been a 
breezeway built along that was surveyed by the Corps of 
Engineers. We were in charge of that process. There is some 
concern of environmental damage that is being done because you 
don't have the natural flow of water over the reef into the 
lagoon. Is that being addressed in any fashion? I am told that 
there may not have been sufficient attention paid 
environmentally to the consequences of having this breezeway 
built. Does anybody want to address that?
    Mr. Pula. I can look into it and get back to you with a 
response on that.
    Mr. Flake. I just want to echo what has been said in terms 
of the importance of the Marshall Islands to the United States 
in terms of our missile testing and what we get out of this 
relationship, and it is substantial. Ms. Reed mentioned those 
who are serving in our military. There are a number. And the 
commitment and number of casualties taken and everything I 
think is disproportionate to the population of the United 
States, what has been inflicted and the sacrifices that have 
been made by the Marshallese in our own military. I know that 
that is appreciated by everyone here.
    And the geography there, everything that we have, the 
largest lagoon in the world, as was mentioned, the ability to 
use, with the agreement with the RMI, those islands to do 
missile testing is invaluable to the U.S. And I hope that we 
proceed in a way forward that recognizes what a wonderful 
partnership this is from our side and that we make sure that we 
fulfill all of our commitments to the Marshallese Government 
and to the people and to make sure that not just the medical 
claims, relocation, but everything else is done as we would 
treat someone who has been a very good friend to us, as they 
have.
    So, thank you, Mr. Chairman.
    Mr. Faleomavaega. I thank the gentleman from Arizona.
    It is nothing to boast about, but I am probably the only 
Member of Congress who has personally visited the sites where 
we conducted our nuclear testing in the Marshalls. And I also 
visited the island of Mururoa where the French detonated some 
220 nuclear bombs in the atmosphere, on the surface, and below 
the surface in French Polynesia.
    A couple of years ago, I was invited by the President of 
Kazakhstan to visit ground zero where the Soviet Union exploded 
its first nuclear bomb in 1949. And guess what? That place is 
still contaminated to this day. The Soviet Union conducted 450 
nuclear explosions in Kazakhstan and, as a result, 1.5 million 
Kazakhs were exposed to nuclear fallout and nuclear 
contamination. The horrible sites that I have personally 
witnessed have deformed children with genetic abnormalities as 
a result of the nuclear explosions.
    Secretary Reed, at that time there was no question that the 
Marshall Islands were critically important to our overall 
strategic, military and national security. And for that very 
reason, rather than exploding bombs in the continental United 
States, we decided to go to where the population was sparse. 
These little islands were sparsely populated and far away from 
our own people here in the continental United States. So a 
decision was made. Let's go to the Marshall Islands.
    In the aftermath of completing our nuclear testing program 
in the Marshalls and as a matter of our continuing foreign 
policy relationship with the Marshall Islands, Madam Secretary, 
do you still consider the Marshall Islands as a very critical 
and important political relationship with this country?
    Ms. Reed. In response to the chairman's question, the 
Marshall Islands, do we still consider it critical in terms of 
its relationship to this country? Very much so. Secretary 
Clinton, in her meeting with the President of the Marshall 
Islands just the day before yesterday, reiterated this and the 
U.S. commitment to the Marshall Islands, noting the strategic 
importance and expressing her goodwill in terms of recognizing 
the many contributions, including that to which Congressman 
Flake referred in support of U.S. policies, and also noted the 
support the U.S. receives in the U.N. It is a broad umbrella in 
terms of the relationship, not only the strategic commitment, 
in terms of the defense relationship.
    Mr. Faleomavaega. I will come back to you, Madam Secretary.
    Mr. Pula, what are the total yearly funds that we give to 
the Government of the Marshall Islands as part of the Compact 
of Free Association agreement?
    Mr. Pula. The question is total amount?
    Mr. Faleomavaega. Yes. How much do we give the Marshalls to 
help operate their government?
    Mr. Pula. It is around $60 million.
    Mr. Faleomavaega. And how long will this stream of funding 
continue?
    Mr. Pula. The amended Compact goes through 2023.
    Mr. Faleomavaega. And then after 2023 they are on their 
own?
    Mr. Pula. There is a trust fund, as I had mentioned.
    Mr. Faleomavaega. How much is the trust fund?
    Mr. Pula. Right now, the last quarter is about $108 
million. And there is a decrement of about $500,000 from the 
operation. It goes into the trust fund as it is being invested 
throughout.
    Mr. Faleomavaega. So the hope is that, after 2023, the 
trust funds will be collected and go into their operations?
    Mr. Pula. Help them with the operations, yes
    Mr. Faleomavaega. And what is the guesstimate when we look 
at projecting how much will be in that trust fund come 2023, 
when we say we no longer have any more financial obligations to 
the Republic of the Marshall Islands?
    Mr. Pula. Congressman, that is a very tough question. 
Because if we have years like 2008, because it is invested, 
they lost about $11 million to $12 million. So at the end of 
2023, it depends on----
    Mr. Faleomavaega. Do they invest in Wall Street or is there 
some other source of banking? With all due respect to my friend 
from New York.
    Mr. Pula. Well, they have financial advisors and the folks 
that invest the money for the trust fund.
    Mr. Faleomavaega. In your best judgment at this point in 
time, in terms of their overall development, will the Marshall 
Islands be able to be self-sufficient by the year 2023 in view 
of the stream of funding that we give them every year to help 
their government a little?
    Mr. Pula. I sure hope so. But, like I said, it is based on 
how the investment goes.
    Mr. Faleomavaega. So what happens if the investment goes 
down hill and this $108 million they are going to be depending 
on every year to draw from disappears?
    Mr. Pula. I think that is something that when comes year 
2023 we will have to revisit.
    Mr. Faleomavaega. Mr. Messervy, I was very impressed with 
our missile testing program in Alabama and your connection to 
our Kwajalein missile base. But I noted with interest not once 
did you mention Ebeye Island, from which that little island 
that serves some 1,000 Marshallese people that come and work in 
Kwajalein every day. Has your Department of Defense ever taken 
into consideration the plight of the Marshallese people living 
on Ebeye Island or is this something for which the Department 
of the Interior is responsible? I am trying to figure out who 
should be there to help these people, the Marshallese. Twelve 
thousand Marshallese men, women and children live on 66 acres. 
I have been there and it is almost just like what my friend 
from New York says: Tough luck, you are on your own.
    Who should be responsible to help these 12,000 Marshallese 
people who live literally in squalor? It is worse than the 
ghetto. No water, except what amount of rain that comes to this 
island.
    Mr. Messervy. Sir, I can address a couple of things.
    I know there have been several projects that the DoD has 
been involved in that are assistance projects for quality of 
life both in water and in power where DoD has really arranged 
and helped many of the people on Ebeye; and we still provide 
services to them in case of emergencies, et cetera.
    Mr. Faleomavaega. My understanding--and I didn't mean to 
interrupt you--electricity goes on at Kwajalein Atoll 7 days a 
week, 24 hours a day. But if you go to Ebeye Island, there are 
constant outages, immense logistical and structural 
difficulties.
    As I have said, these people really, really are in dire 
conditions. Is there any way the Department of Defense can give 
assistance to these people, or is it not your responsibility?
    Mr. Messervy. I think on a humanitarian--that is my point--
is we are providing some of that support. But it is not our 
responsibility directly to do that. But, as representatives and 
as good neighbors, we do many of those things. In fact, last 
year we provided some spare parts and technicians to go up and 
help restore power on several occasions at Ebeye.
    Mr. Faleomavaega. You know, when I visited Kwajalein, at 4 
o'clock every one of these Marshallese people working at 
Kwajalein needs to be on that boat back to Ebeye. Do you know 
how that makes me feel? I feel like a criminal, like I am some 
person not to be trusted because of all the highly classified 
research and programs in Kwajalein. Are these people 
terrorists?
    How many people live on Kwajalein?
    Mr. Messervy. Now there is a little less than 2,000.
    Mr. Faleomavaega. 2,000. Do you think that perhaps they can 
take in some people from Ebeye?
    Mr. Messervy. I am not prepared to answer that.
    [Additional information follows:]
Written Response Received from Steven Messervy, Ph.D. to Question Asked 
       During the Hearing by the Honorable Eni F.H. Faleomavaega
    Primarily due to the classified research and test programs that are 
conducted at the locations' 11 defense sites, US Army Kwajalein Atoll/
Reagan Test Site is a military installation with extremely limited 
access. In addition to the operational requirement to severely limit 
access, the government and contractor workforce occupy all available 
housing on the islands of Kwajalein and Roi-Namur.

    Mr. Faleomavaega. Mr. Pula.
    Mr. Pula. If I may, Mr. Chairman, the Compact provides 
about $3.1 million, with inflation adjustment annually, as 
Ebeye's special needs grant, the funding to improve the 
infrastructure and delivery of services over there at Ebeye. 
There is also, within the Kwajalein Atoll, this amount 
increases to about $5.1 million, plus inflation, annually in 
2014.
    Mr. Faleomavaega. Kwajalein Atoll? But the Marshallese 
don't live on Kwajalein. These are all Americans and 
contractors.
    Mr. Pula. Yes, I know. But I am saying the impact of that, 
with the $3.1 million that goes into Ebeye to help them with 
their deliveries.
    Mr. Faleomavaega. You mean the wages, the salaries that are 
paid to these 1,000 Marshallese?
    Mr. Pula. No, no, no. This money goes to Ebeye itself.
    Mr. Faleomavaega. Which raises another question: How much 
do we pay the Marshallese people working on Kwajalein? How many 
dollars an hour are we paying the Marshallese workers there at 
Kwajalein? Could you provide that for the record? I am very 
curious.
    Mr. Messervy. Mr. Chairman, we can provide that for the 
record.
    [The information referred to follows:]
Written Response Received from Steven Messervy, Ph.D. to Question Asked 
       During the Hearing by the Honorable Eni F.H. Faleomavaega
    In regards to the Chairman's inquiry regarding the salaries of the 
Marshallese workforce that supports USAKA/RTS, the overall hourly 
average of the workforce is $7.57. The salaries paid by USAKA support 
contractors range from a high of $28.74 an hour for highly skilled 
positions (such as pilots, hospital technicians, and managers) to a low 
of $3.00 an hour for entry-level unskilled manual labor positions. For 
reference, per Section number 403 of RMI Public Law, the established 
minimum wage in the RMI is $2.00 an hour.

    Mr. Pula. I also want to note that the Compact provides 
about $1.9 million as Kwajalein impact funding to be used for 
purposes of affordable housing of the folks for both Ebeye and 
the Marshallese communities in the Kwajalein Atoll.
    Mr. Faleomavaega. This is what the Republic of the Marshall 
Islands agreed to with our Government in a Compact, $1.9 
million?
    Mr. Pula. Yes. It is a bilateral agreement that we agreed 
upon.
    Also, using this funding, we provide generators, recently 
purchased, and reverse osmosis machinery were repaired in 
Ebeye, enabling the island to have a little bit more reliable 
electricity, and also potable water.
    USAID is pre-positioning emergency supplies on Kwajalein to 
improve response time and efficiency in the event the U.S. 
Ambassador declares a disaster on Ebeye.
    Mr. Faleomavaega. We didn't have a USAID presence in the 
Pacific until maybe 3 or 4 weeks ago, after years and years of 
my complaining and criticizing our foreign policy toward the 
Pacific, no USAID presence until only a matter of 1 month ago, 
I believe.
    Ms. Reed. Right. This is an AID Office of Foreign Disaster 
Assistance, a representative that sits in the embassy. I am 
speaking of the Marshall Islands now, Majuro.
    Mr. Faleomavaega. Please, I didn't mean to interrupt you.
    Mr. Podonsky, you mentioned that your activities in giving 
medical treatment to the Marshallese people are under the 
mandate of the Congress. What is the total amount of 
appropriations that Congress gives the Department of Energy for 
addressing the medical needs of the Marshallese?
    Mr. Podonsky. $6.3 million.
    Mr. Faleomavaega. Do you think that is adequate?
    Mr. Podonsky. We have made it as adequate as we can.
    Mr. Faleomavaega. You made it as adequate as you can. How 
many doctors does the Department of Energy specifically assign 
to give help to Marshallese people with medical problems?
    Mr. Podonsky. I am sorry, sir. Could you repeat that? How 
many doctors do we have?
    Mr. Faleomavaega. Yes. How many doctors do you have going 
out there and making these assignments and checking the health 
status of our Marshallese people?
    Mr. Podonsky. I will have to get back to you on how many we 
have.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Podonsky. But I will tell you this, Congressman, that 
we have taken our responsibility for the numbers of people that 
we have, which I mentioned in my testimony. By an Act of 
Congress, we only have the original 253, which is now down to 
153. And my director of the program, who sits behind me, Dr. 
Worthington, and my program manager are with me here.
    I want to answer your question by saying this. We firmly 
agree with what the Department of Energy's slice is of 
responsibility, but we have done more than we are legislatively 
mandated to do. We have asked our doctors, as well as our 
arrangements with the Marshallese doctors, to see other 
patients, not just the DOE patients that we have identified.
    We also have on Runit Island taken on responsibility where 
it used to be a DoD responsibility for the environmental 
monitoring; and we have our health physicist from Livermore 
National Laboratory volunteering his time to do that.
    We have four agencies represented----
    Mr. Faleomavaega. Mr. Podonsky, I didn't mean to interrupt 
you but, in your best judgment, do you think Congress is doing 
its job by giving you sufficient funds to carry out your 
responsibilities and giving the best medical treatment possible 
to these people?
    Mr. Podonsky. For the population that I am responsible for, 
yes. But are we doing our job both in the executive branch and 
legislative branch? No, sir.
    Mr. Faleomavaega. All right, good. I appreciate that.
    For the record, I note that our so-called ``experts'' 
during that time seem to have focused primarily on the four 
atolls, and I am not--maybe Dr. Messervy can help us--saying 
the amount of radioactive intake of the Marshallese people 
seems to have been focused on the four atolls. We declassified 
some of these documents from the Atomic Energy Commission, and 
found out years later that the entire Marshall Islands 
Archipelago had a tremendous amount of radioactive exposure. It 
wasn't just these four atolls. And I am definitely going to 
pursue this issue; we need to clarify this.
    I am going to yield to the gentleman from New York for his 
second round of questions.
    Mr. Ackerman. Thank you, Mr. Chairman.
    I would like to go back to Mr. Pula for a moment, if I 
might.
    You brought up the trust fund, which expires in 2023, or is 
scheduled to. Who is the trustee of the trust fund?
    Mr. Pula. We have two trust funds. I want to make sure that 
I get the right--for the Marshall Islands, I think it is the 
First Hawaiian Bank. At the moment, we are going through a 5-
year review where the members of the trust fund committee are 
looking to change the financial advisors as well as the 
trustee, the banks.
    Mr. Ackerman. Who appoints the trustees?
    Mr. Pula. We have three members from the United States and 
two members from the Marshall Islands.
    Mr. Ackerman. So we are basically in control of the trust 
fund.
    Mr. Pula. The trust fund committee, yes.
    Mr. Ackerman. So this is American responsibility.
    Mr. Pula. Bilaterally, yes.
    Mr. Ackerman. You mentioned the fund not doing well in 
2008. I don't know how well it did in 2009, but my suspicion 
and gut is that the fund has suffered severe losses, has 
tremendously underperformed its expectations, and I don't know 
if it has met its hurdle as far as what it is supposed to be 
producing in order to be adequate.
    I don't know what those numbers are, nor do I pretend to. I 
don't know if you have that information, but the response to 
the chairman that we will have to wait until 2023 is not a very 
good response for those who are supposed to be the trustees of 
this fund to take care of the needs of those people. By then, 
it is all over. There is no more trust, and there is no more 
time to fix it if we wait until the funds run out. And we have 
to know, as policymakers, as to whether or not there should be 
adjustments or beefing up of the fund or a replacement of the 
trustees. And I would like to request, Mr. Chairman, if that is 
okay with you, that we get a full report on the performance of 
the fund.
    Mr. Faleomavaega. Without objection.
    Mr. Ackerman. And we need your recommendations. You are 
performing your congressional mandate, your legislative 
mandate. That is fine, and we need that. But you are a lot 
closer to the ground here on this than we are. With all the 
issues that we are facing, we are embarrassingly not paying 
enough attention to this very small place with a small number 
of people, and it really cries out for attention because of all 
of the other justice issues that are involved here.
    I don't know that we are doing a good enough job. The 
larger issues that I spoke to in my opening statement and in my 
first round of questions are nothing personal to this panel, 
which I am sure, I know, is made up of good and diligent people 
struggling to do the right thing under the mandates and 
restraints that you have. But my frustration initially is based 
on the history and the need for us, as a people, to make right 
a wrong that we are totally responsible for, where we are the 
victimizers and they are the victims, that we have negotiated 
the number of doctors and what we are doing, we have evidently 
negotiated this bilateral agreement with a thoroughly limited, 
weaker partner that had no leverage whatsoever in the 
negotiations and can't necessarily speak with great authority 
as to what their needs are.
    I think, Mr. Chairman, if you and the committee that you 
chair that I am privileged to sit on would try to come up with 
recommendations as to the adequacy of what is being provided 
for the Marshall Islands, that I and others on the committee 
would stand full square behind you to try to marshal--if I 
could use that word--the resources----
    Mr. Faleomavaega. If the gentleman would yield, I gladly 
thank my good friend from New York for his interest in this 
issue.
    As you rightly say, it is not exactly high on our priority 
list as far as the national interest and the commitments that 
our country has. But this should not be an excuse for us in our 
responsibilities to these people and I believe that the 
contributions they made to our country's overall strategic 
interests and military interests should not be overlooked. I 
deeply appreciate the gentleman's interest in this matter and I 
definitely will pursue this.
    Mr. Ackerman. Mr. Chairman, it is not just for the 
strategic value of this place, which is enormous for us, it is 
very, very important, but for our own self-respect to be able 
to fix the problems to whatever limited ability that we can. To 
know that we have put all the resources behind remedying the 
things that we have caused to go wrong is an obligation that 
should be a priority, besides any other priority that we might 
have.
    I thank the chairman for calling the hearing and putting 
this matter before the Congress so that we might remedy this 
and fix the problems that we have caused and do justice, which 
is what the people on this panel I know would like to see. But 
you all have to help us to tell us what is needed so that we 
might work that out with you and provide that.
    Thank you very much, Mr. Chairman.
    Mr. Faleomavaega. I thank the gentleman for his statement 
and observations on the issue and we look forward to working 
with him as we pursue this matter.
    I have just one or two more questions to our panel, and I 
deeply appreciate your patience.
    Mr. Pula, I indicated earlier the position of the 
Department of the Interior on yesterday's Senate hearing that 
your Department does not support the bill's proposal to provide 
an additional $2 million in funding and authorization in 
funding, as ex gratia payment, to assist with some of the 
issues and problems that we have discussed this morning. Maybe 
you could elaborate on that. If that is the correct way that 
the hearing was held yesterday, I would appreciate your 
comment.
    Mr. Pula. Thank you, Mr. Chairman.
    We did not support that section of the Senate bill, I 
think, 2941. However, I would like to mention that in the last 
2 or 3 years, in the context of appropriation, there is about 
$1 million that the Office of Insular Affairs received, and we 
have utilized that money for the four atolls and their health 
in collaboration with the Marshall Islands.
    I think the administration proposed a permanent allocation. 
However, on an annual basis, we do get about $1 million that is 
provided for the four atolls in the health issue. So I want to 
clarify that.
    And I also mentioned at the last part of my statement that 
we were looking forward to working with the Senate committee on 
any amendments to the legislation that they we had testified 
yesterday.
    Mr. Faleomavaega. Given the years of experience that you 
have had in working in this administration as well as with past 
administrations, do you sense that the perception among some of 
our national leaders is that perhaps we have given too much 
money to the Marshallese people?
    Mr. Pula. Well, I don't venture to respond on my opinion on 
that. However, as the administration, we execute the laws that 
are passed by Congress. A lot of times we want to do more, but 
because of the constraints upon us based on the laws and the 
amounts of money that are in there, for example, the changed 
circumstances--that we were all shocked in the beginning when 
Congressman Ackerman asked the question about the value. I 
mean, that issue is so sensitive, and we know that none of us, 
I think, were there in 1986 when the United States and the 
Republic of the Marshall Islands in the Compact settled all 
nuclear claims for $150 million. And I know that the Marshall 
Islands came back I think maybe in the year 2000 with a changed 
circumstances to Congress.
    In January 2005, the Department of State transmitted to the 
Congress the executive branch evaluation at the time, that the 
executive branch concluded there was no legal basis for 
considering additional payments under section 177.
    And the hearing today----
    Mr. Faleomavaega. Mr. Pula, if I might interrupt you. When 
you say that there was no legal basis, can we consider perhaps 
a matter of not legal, but moral, basis above any legalese 
things that these lawyers con up?
    Here is my concern. I think one of the circumstances that 
was claimed by the Marshall Islands Government, the change of 
circumstance, was the fact that they found out, after 
declassifying a lot of these documents on our nuclear testing 
program, that it wasn't just the four atolls. It seems that 
that was the emphasis of the Atomic Energy Commission and the 
whole national government; that these are the four atolls that 
we need to focus on because they are the ones that were 
exposed. And yet when we declassified the documents, we found 
out it wasn't just the four atolls. The whole of the Marshall 
Islands was seriously exposed to nuclear radiation. That was a 
change of circumstance. And you are saying that our Government 
refuses to accept that as a change of circumstance.
    Mr. Pula. I think that was the 2005 conclusion that that 
administration had reached.
    You have mentioned the changes, where we got into 
documents. I think we also appreciate you holding hearings 
regarding this issue. And I would say that, as Congressman 
Ackerman said, it is something that both the Congress and this 
administration----
    Mr. Faleomavaega. You know, I just wanted to say please 
don't take it wrong if sometimes I get a little emotional about 
this issue, as my good friend John Weisgall and I have been 
involved with these issues since 1975. I am an old man already. 
And the bottom line, I am not disparaging any of you 
personally, but I just honestly believe that the policies that 
our Government has enunciated--from all previous 
administrations--have jerked these people around too long with 
inconsistencies and contradictions. All kinds of excuses we 
come up with, more than anything, just to say these people 
don't deserve the money that they should get for the losses of 
their islands, their property and even their lives. And we are 
saying that it is too much.
    But we can pay other people, our fellow constituents and 
citizens, exposed to nuclear radiation in Nevada over $1 
billion; and probably even more in the Hanover situation in 
Washington, in the billions.
    So I am not saying that this money is not very important, 
nor that it is too high, by the estimates of some of our so-
called ``experts.'' And, as you said earlier Mr. Pula, you can 
never put any value of money on a person's life. I believe 
these people have suffered enough, have sacrificed more than 
their share for the 12-year period that we conducted these 
tests. They deserve better. That is all I am trying to say. 
Please help us.
    And I am saying the blame is just as much on Congress, as 
Mr. Ackerman said, for lack of attention. I remember the chiefs 
of American Samoa who had treaties of session proposing that we 
have a compact relationship with the United States. It took us 
29 years to finally ratify these treaties of session with the 
Congress of the United States. So I think we all have a sense 
of appreciation.
    Dr. Messervy, Mr. Podonsky, Mr. Pula, Secretary Reed, thank 
you so much for coming. I still have a good amount of people 
here who need to testify. And this is not at all to be 
disrespectful to our good leaders and to those who will be 
testifying from the Republic of the Marshall Islands, but it is 
just that a briefing takes on an entirely different procedure.
    So we have come to our second panel. Thank you very much 
for coming. We look forward to working with you and your 
respective agencies and departments.
    For our second panel, we have Dr. Neal Palafox, Jonathan 
Weisgall--Jonathan, you are still around; I can't believe 
this--Mr. Don Miller and Mr. Robert Alvarez.
    Dr. Palafox is presently professor and chair of the 
Department of Family Medicine and Community Health at the John 
A. Burns School of Medicine at the University of Hawaii. He 
completed his residency in family medicine at UCLA Medical 
School, obtained a master's in public health at Johns Hopkins 
in Maryland and he went to the Marshall Islands in 1983 as a 
National Health Service Corps physician, where he became co-
medical director of the U.S.-funded program to care for the 
radiation-affected people of the Marshall Islands in 1985. He 
completed his 9-year tenure in the Marshall Islands as their 
medical director for preventive health services and public 
health.
    Dr. Palafox has been working on Pacific health care 
disparities and developing cancer health care systems in the 
Marshall Islands and other U.S. Pacific countries, including 
the Territories of Guam, American Samoa, CNMI, FSM and the 
Republic of Palau. And between 1997 and 2009, Dr. Palafox was 
the principal investigator for a congressionally-mandated 
program to provide medical care for Marshall Islanders who were 
exposed to fallout from the Bravo hydrogen detonation in the 
Marshall Islands. Dr. Palafox has been integrally involved in 
the health issues of the Compact negotiations.
    Another witness today is my good friend, Jonathan Weisgall, 
who has served as legal counsel for the people of Bikini since 
1975. He is the author of ``Operation Crossroads: The Atomic 
Tests at Bikini Atoll'' and executive producer of Radio Bikini, 
which was nominated for a 1988 Academy Award for best 
documentary.
    He is an adjunct professor of law at Georgetown University. 
He is a graduate of Columbia University and Stanford Law 
School. This gentleman has expended tremendous effort to help 
the people of the Marshall Islands.
    Mr. Don Miller is a solo practitioner attorney from 
Colorado, specializing in Federal Indian law. Before starting 
his own firm in 2001, he was a staff attorney with the Native 
American Rights Fund in Boulder and Washington, DC, for 27 
years.
    He has represented tribal clients before the United States 
Supreme Court, Federal appellate courts and district courts. He 
has quite a bit of legal experience representing the various 
Indian tribes before State as well as Federal courts. He 
graduated from the University of Colorado with a bachelor's 
degree and a law degree.
    Mr. Robert Alvarez is a senior scholar at the Institute for 
Policy Studies in Washington, DC, specializing in energy, 
environment and national security issues. And for 6 years, 
until 1999, Mr. Alvarez served as Deputy Assistant Secretary 
for National Security and Environmental Policy and senior 
policy advisor to the U.S. Secretary of Energy.
    He also served on the majority staff of the U.S. Senate 
Committee on Governmental Affairs under the leadership of 
Senator John Glenn from the State of Ohio. Mr. Alvarez's work 
has appeared in Science, Ambio, Science and Global Security, 
Technology Review, the Bulletin of Atomic Scientists, the 
Washington Post, the Nation and several other publications.
    Gentlemen, thank you for taking the time to be with us this 
afternoon. We would like to have you give your testimony.
    Dr. Palafox.

   STATEMENT OF NEAL A. PALAFOX, M.D., M.P.H., PROFESSOR AND 
CHAIR, DEPARTMENT OF FAMILY MEDICINE AND COMMUNITY HEALTH, JOHN 
       A. BURNS SCHOOL OF MEDICINE, UNIVERSITY OF HAWAII

    Dr. Palafox. Honorable----
    Mr. Faleomavaega. Just call me Eni.
    Dr. Palafox. Honorable Eni, I have been requested by this 
committee to provide a personal assessment of the medical 
achievements of the Marshallese people affected by U.S. nuclear 
testing. As you mentioned, I draw my testimony from my 
experience with the many nuclear programs in the Marshall 
Islands.
    My testimony will discuss three related medical themes. The 
first is the health impact of the U.S. nuclear testing program 
in the Republic of the Marshall Islands. The second is the U.S. 
medical care response to the health impacts of nuclear testing. 
And third, what I think should be the recommended medical 
response and health care responsibility of the U.S. Government 
under the current situation.
    The first part. Illnesses caused by the U.S. nuclear 
testing program were the result of three things: One is high-
dose radiation exposure; the second thing is long-term exposure 
to low levels of ionizing radiation; and, thirdly, it is 
destruction of ancestral lands, culture disruption, and 
dislocation of Marshallese communities.
    The health effects of high-dose exposure. Marshall 
Islanders, as you noted, Honorable Eni, is they experienced 
severe nausea, intractable vomiting, severe burns, hair loss, 
hypothyroidism because of the hot, sudden, high-dose radiation 
of 1954. Shortly after that, thyroid cancers began to appear.
    The health effects from long-term, low-dose radiation. 
Long-term, low-dose radiation exposure can result in 24 types 
of cancer, including leukemia, breast, lung, intestine, 
stomach, bone, liver and brain cancers, to mention a few. An 
individual who is exposed to low doses may develop radiation-
related cancer 40 years or more after the exposure.
    Cancers will occur in the Marshallese throughout all of the 
atolls of the Marshall Islands because of the long-term effects 
of high- and low-dose radiation. These doses come from 
environmental particles that may be eaten, breathed, and 
digested in the food and environment. Ionizing radiation is 
also showing other illnesses that are other than cancer. They 
include hereditary defects, heart disease, strokes, digestive, 
respiratory and blood disorders.
    What are the health effects associated with the destruction 
of ancestral lands and social disruption? Destruction of land 
and critical natural resources through radioactive 
contamination or forced evacuation leads to forced changes in 
dietary patterns and lifestyle which can prematurely cause 
heart disease, diabetes, and obesity.
    Posttraumatic stress disorder results from trauma of forced 
change, cultural disruption, and illness. Posttraumatic stress 
disorder has never been addressed in the Marshall Islands.
    The U.S. medical response. Because of nuclear testing, U.S. 
medical teams have three functions: One is to provide health 
care; secondly, is to perform medical monitoring regarding 
health trends; and, thirdly, research to gain information about 
the human response to ionizing radiation.
    Provision of health care monitoring or research services by 
U.S. Medical teams was dependent on the U.S. Government 
priority at the time. Medical health care for illnesses 
generated by high-dose and low-dose radiation and the illnesses 
from destruction of lands and cultural living should have been 
provided by the U.S. medical teams. There is very little that 
was done or that is being done to adequately address, A, the 
long-term effects of radiation; or B, health effects from the 
destruction of Marshallese culture and lands.
    It is my opinion that the major emphasis during and in the 
post-nuclear testing era was not the provision of medical care. 
Medical care was provided in an acute, as-needed function, 
without much forethought to developing a systematic health 
system to meet the ongoing health needs of the affected 
populations.
    There are two medical programs that were put forth to meet 
medical needs. One program worked with Rongelap and Utrok 
communities affected by the Bravo detonation. Neither the 
Atomic Energy Commission and then the Department of Energy have 
the expertise or background to develop or implement the 
necessary health care systems needed to address the health 
impact of the nuclear testing program.
    The current 177 health program for the four atolls was 
designed to be a comprehensive health care program and had an 
appropriate design. The 177 health care program for the four 
atolls has been crippled because of funding restraints.
    This severely underfunded program sends a message from the 
U.S. Government that a comprehensive health care system 
response to the legacy of nuclear exposure in the Republic of 
the Marshall Islands is not a priority. The emphasis of the 
U.S. medical response to this day, in spite of the evidence of 
harm to the Marshall Islanders, is piecemeal, poorly contrived, 
poorly funded, and does not address the known health care needs 
of the affected population. It is not apparent that the U.S. 
agencies which provide health care to the Marshallese people 
have the health of the Marshallese people as a primary and 
central concern.
    The recommended response. After 60 years of U.S. oversight, 
knowing there are latent cancers caused by U.S. Nuclear 
testing, the fact that a Marshallese person living in the 
Marshall Islands does not have access to routine cancer 
screening or there is not systematic mammography screening for 
breast cancer or that cancer treatment is not readily available 
is a travesty.
    The appropriate approach to health care should advocate to 
protect and care for potential victims of nuclear testing at a 
U.S. standard of health care. Withholding health care for known 
consequences of nuclear radiation testing is a true social 
injustice, and, I agree with you, is racism. The Marshallese 
are developing and dying from treatable illnesses caused by the 
U.S.-Marshall Islands thermonuclear weapons testing programs.
    I recommend the following actions. One, that the standards 
for health care screening and treatment for the people affected 
by ionizing radiation from the Nevada test site in Hanover be 
applied to the people of RMI.
    Two, that the U.S. policymakers review the operational 
definitions regarding the extent and consequence of the nuclear 
testing program and support an expanded definition coinciding 
with current scientific evidence.
    Three, that a preventive, precautionary, patient-centered 
approach to potential health issues be utilized instead of a 
reactionary approach.
    Four, that a comprehensive cancer health care program, 
including prevention, screening, diagnosis and treatment, be 
systematically provided in the Marshall Islands at U.S. 
standards.
    Thank you very much.
    [The prepared statement of Dr. Palafox follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. Thank you, Dr. Palafox.
    Mr. Weisgall.

 STATEMENT OF MR. JONATHAN M. WEISGALL, LEGAL COUNSEL FOR THE 
                   PEOPLE OF THE BIKINI ATOLL

    Mr. Weisgall. Mr. Chairman, thank you very much. I am legal 
counsel for the people of Bikini, but today I have been asked 
to testify on behalf of Bikini, Enewetak, Rongelap, and Utrok, 
the atolls most directly affected by the U.S. nuclear testing 
program. They are here today, Mr. Chairman, to tell you one 
story, and that is to review a 64-year shell game that the 
United States has played with their constitutional rights.
    I am going to go over some of the issues that you covered 
with the first panel, but maybe from some different angles. So 
I am going to jump around a little bit in my statement.
    Let's begin back in 1947 with the U.N. When the United 
States pledged to the United Nations in that agreement to 
protect the inhabitants against the loss of their lands and 
resources, that did not happen. The people of Bikini and 
Enewetak left their homelands and relied on the government's 
promise to return them safely. That has yet to happen. Bikini 
is still radioactive. No one lives there. The Enewetak people 
cannot return to their northern islands because of the high 
radiation levels there.
    Let me give you an interesting statistic about that Bravo 
shot. The people of Rongelap, 125 miles away from Bikini, 
received radiation doses similar to people 2 miles from ground 
zero in Hiroshima and Nagasaki. That was the strength of the 
Bravo shot.
    That Compact of Free Association--those solemn words by the 
United States, ``We accept the responsibility for compensation 
owing to the citizens of the Marshall Islands for loss or 
damage to property and person resulting from the nuclear 
testing program.'' I have got that memorized.
    On the other hand, the United States acknowledged its 
obligation but forced the Marshallese to seek the compensation 
in this newly established Nuclear Claims Tribunal. The atolls 
argued at the time that the funding was inadequate to protect 
their rights, and the U.S. courts ruled that they have to 
exhaust their remedies under the tribunal first before they 
come back. We will get back to that question.
    Nineteen years go by with litigation before the tribunal. 
As you said, awards of $2.2 billion and payments of $3.9 
million. If Mr. Ackerman were here, I would tell him the exact 
finances of that $150 million trust fund which had to pay out 
$18 million per year for 15 years. You do the math. It had to 
earn 12 percent per year. And, by the way, the first year of 
the trust fund was the 1987 crash, so you know what happened to 
that trust fund.
    The Marshallese patiently pursued every possible remedy 
afforded by our legal system. They trusted the system to make 
them whole. The U.S. paid them nothing. And when they came back 
to the U.S. courts to seek to enforce the awards, the U.S. 
said, ``Sorry, the doors are closed.''
    Let me give you one sentence as to what happened. The 
United States legislated itself out of its obligation to 
provide just compensation to these islanders, forced their 
claims into an alternative forum, and then failed to provide 
adequate funds for that forum.
    My written statement covers the 30 years of litigation 
before the U.S. courts and the tribunal, but let me stress two 
key points here, because it is going to lead to my conclusion 
on this reference case.
    Number one, in the 1980s, the U.S. Government wed language 
in its legal briefs that would have led any reasonable judge to 
conclude that there would be adequate and sustained funding. I 
want to read you some highlights from their briefs back in the 
eighties when this system was set up and they said go to the 
tribunal.
    They called the 177 Agreement, that trust fund--I am 
quoting--``a permanent alternative remedy, with substantial and 
regenerating funding, for compensating all claims, in 
perpetuity.''
    Let me quote from some other lines. I am reading from the 
U.S. Government's briefs: ``Permanent funding mechanism.'' 
``Comprehensive long-term compensation plan.'' ``Provides 
continuous funding.'' ``Structured and financed to operate `in 
perpetuity.' '' And, in response to us, ``There is no basis to 
presume that the Agreement will fail to provide a just and 
adequate settlement.''
    The second point I want to make, the courts. There is a 
level of sympathy there, and the courts, even in the eighties, 
said if the tribunal doesn't function correctly--the U.S. 
Government said if the tribunal doesn't function correctly, 
``Congress would need to consider possible additional 
funding.'' And in their briefs, they refer to that trust fund 
as a base amount.
    And when you read the written opinion of the U.S. Court of 
Appeals, the Federal Circuit Court of Appeals, two separate 
times it refers to that trust fund as an ``initial sum,'' an 
``initial amount.'' And then 20 years later, last year, the 
Federal Circuit Court of Appeals recognized that the funding is 
simply outside of judicial remedy.
    There is a role for Congress, that is my point, especially 
after the Supreme Court denied cert.
    What should this committee do? Develop legislation under 
your congressional reference authority to refer these cases to 
the Court of Federal Claims; direct that court to make findings 
sufficient to inform Congress whether this is legal or 
equitable--that is an issue we have talked about today--legal 
or moral; and to determine the amount of damages. That court 
does that every day. They determine damages on land claims. And 
let them come back with a recommendation.
    The American people--and you have heard it from your 
colleagues up there--the American people have a legal and moral 
obligation to compensate the people of the Marshall Islands. 
And I would say to those who have said that the book is closed 
on this issue because of the passage of the compact and because 
of the establishment of that trust fund, I would say that one 
chapter is missing in that book, and that book cannot be closed 
until the lands of the islanders are restored and they receive 
full compensation for their claims against the United States, 
and the United States cannot and should not play a shell game 
with the constitutional rights of the Marshall Islanders.
    Thank you.
    [The prepared statement of Mr. Weisgall follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. As always, I am very happy to see you, 
Mr. Weisgall, not just as someone who has institutional memory, 
but also because we have been together on this issue with the 
Marshall Islands for so long. I deeply appreciate your 
statement.
    Mr. Weisgall. I do know you from the Eni Hunkin days when 
Mr. Burton chaired the committee a long time ago.
    Mr. Faleomavaega. Mr. Miller.

 STATEMENT OF MR. DON MILLER, ESQ., INDEPENDENT ATTORNEY-AT-LAW

    Mr. Miller. Mr. Chairman, it is an honor to appear before 
you today. I have been asked to provide the committee my 
assessment of the congressional reference process and its 
suitability for furthering the nuclear claims case of the 
Marshallese people. I have prepared and submitted written 
testimony and my comments will generally summarize what I have 
prepared and submitted.
    For the last 26\1/2\ years, I have represented the Alabama-
Coushatta Tribe of Texas in Congressional Reference Number 3-
83. I think that that case and the experience of that tribe in 
pursuing it may be instructive to the committee, so I would 
like to review it just very briefly.
    In 1970, the Alabama-Coushatta Tribe filed a 9-million-acre 
land claim against the United States. After a trial, the court 
ruled that they couldn't pursue it; that the courthouse door 
was closed. The tribe could not bring it because of the statute 
of limitations. So the tribe sought a congressional reference. 
It took six Congresses to get it through.
    In 1983, Congress referred the claim to the claims court. 
We litigated--I drafted and filed the complaint in that case--
and we litigated that case for 17 years against the United 
States Department of Justice. It is the most contentious 
litigation process I have ever been involved in.
    In the year 2000, the court finished the liability phase of 
the case and ruled that the United States would be liable for 
damages on 2.5 million acres of that 9-million-acre claim. At 
that point in time, the Justice Department and the Tribe and 
all the lawyers looked at each other and said, ``Wow, we are 
tired; let's see if we can't settle this.''
    So for 2 years we worked toward settlement. We hired 
experts. And in 2002 we stipulated that, under that opinion, 
the United States should pay the Tribe $270.6 million. It was 
approved. That recommendation was returned to Congress in 2002, 
and Congress has yet to take action on it. We are still working 
on it.
    The congressional reference process is a process that is 
available to you here to seek an advisory opinion from the 
Court of Federal Claims. It is used in complex cases where 
Congress doesn't feel like it has the fact-finding and legal 
expertise, so you can refer a private claims bill to the court 
of claims for--it is now the United States Court of Federal 
Claims--for an advisory opinion.
    Once the case goes over there, it is a fully adversarial 
proceeding. And if the court finds in favor of the claimant, it 
will return a recommendation to Congress and then it will be up 
to Congress to take action.
    I certainly am not an expert on the Marshall Islands, but 
from what I have heard and read over the last few weeks 
preparing for this testimony, it appears to me that the 
congressional reference process would be ideally suited to 
address the circumstances that you have before you now.
    The United States has undertaken and breached a number of 
solemn fiduciary and contractual obligations. The United States 
has given assurances upon which the Marshallese relied in good 
faith, and they apparently have done so to their extreme 
detriment. The courts have considered these claims and have 
ruled with finality that the courthouse doors are now closed, 
and that is precisely the kind of circumstance that the 
congressional reference procedure is designed to address.
    I would note that the Marshall Islanders have been through 
decades of litigation, and if you utilize this process, you are 
probably consigning them to decades more of litigation. But if 
that is the only route that is available to the Congress--and I 
am not sure it is--I think perhaps you could do the right thing 
and go ahead and pay it. But that may not be feasible, and if 
it is not, then certainly the congressional reference procedure 
is appropriate in these circumstances.
    I might urge the committee, though, that if you do send 
them to the Court of Federal Claims, you might want to consider 
making provision--in light of the role that the United States 
has played in prolonging their litigation woes, if you will--
you might want to consider providing a fund that could allow 
them to retain expert witnesses and assist them in that 
litigation process. I think that that is well within your 
purview to do. Congress has done that before for American 
Indian Tribes in the Indian Claims Commission Act, so the 
committee might want to consider doing that.
    I will be happy to answer any questions. Thank you for the 
opportunity.
    [The prepared statement of Mr. Miller follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. Thank you.
    Mr. Alvarez.

STATEMENT OF MR. ROBERT ALVAREZ, SENIOR SCHOLAR, INSTITUTE FOR 
                         POLICY STUDIES

    Mr. Alvarez. Mr. Chairman, thank you very much for the 
opportunity to testify before you.
    The radiological legacy of the U.S. nuclear weapons testing 
in the Marshall Islands remains to this day and will persist 
for many years to come. The amount of radioactivity released 
from the weapons tests in the Marshall Islands is staggering. 
The six largest tests conducted in 1954 released on the order 
of 50 times more radioactive iodine than the Chernobyl 
accident, for example.
    The most severe impacts were visited upon the people of 
Rongelap in 1954, following a large thermonuclear shot which 
deposited life-threatening quantities of radioactive fallout on 
their homeland.
    The Rongelap people were exposed to more than three times 
the estimated external dose than the most heavily exposed 
people living near the Chernobyl accident in 1986. It took more 
than 2 days before the people of Rongelap were evacuated after 
the explosion. Many, as you have heard, have suffered from 
tissue-destructive effects of radiation and, subsequently, from 
latent radiation-induced diseases.
    In 1958, they were returned to their homeland, even though 
officials and scientists working for the U.S. Atomic Energy 
Commission determined that radiation doses would significantly 
exceed those allowed for citizens of the United States. That 
desire to study humans living in a radiation-contaminated 
environment appeared to be a major element of this decision.
    By 1985, the people of Rongelap fled their atoll after 
determining that the levels of contamination were comparable to 
the Bikini Atoll, where people were resettled in 1969 and 
evacuated in the mid-1970s after radiation exposures were found 
to be excessive.
    A few years before the evacuation of the Rongelap people in 
1981, a policy was secretly established by the Energy 
Department during the closing phase of the negotiations of the 
Compact of Free Association to eliminate radiation protection 
standards so as not to interfere with the potential resumption 
of weapons testing in the Pacific.
    These circumstances were subsequently uncovered in 1991 by 
the U.S. Senate Committee on Governmental Affairs, which I was 
involved in investigating. As a result of this investigation, 
the Environment Safety and Health program of the Marshall 
Islands was moved out of the DOE weapons program. Congress 
terminated what was called the ``Safeguard Sea'' program that 
was to be a readiness program to resume nuclear weapons testing 
in the Pacific. And in 1992, the U.S. Departments of Interior 
and Energy entered into an agreement with the Republic of the 
Marshall Islands and the local Rongelap Government that 
reestablished radiation protection standards as the major 
element for the resettlement of Rongelap. This agreement was 
reviewed by the National Academy of Sciences in 1994 and found 
to be viable.
    One of the key aspects of this, according to the Academy:

        ``A crucial provision is that resettlement will occur 
        if no person returning to Rongelap and subsisting on 
        native foods only will receive a calculated annual 
        whole-body radiation dose equivalent to more than 100 
        millirem above background.''

    In 2006, a radiological expert for the people of the 
Rongelap Atoll reported that the 100 millirem limit would be 
exceeded based on a local-food-only diet and if potassium 
fertilizer was not repeatedly applied. Apparently this was not 
done for the southern islands, the atoll where local food is 
obtained. Despite this warning, the Departments of Energy and 
Interior did not take steps to ensure this would be done in 
accordance with the 1992 agreement.
    Given the long and unfortunate legacy of nuclear testing, 
it appears that this critical element of safety was lost in the 
shuffle. Until the U.S. Government can assure that steps to 
mitigate doses below 100 millirem are demonstrated by applying 
potassium fertilizer, efforts to pressure the Rongelap people 
back to their home is unjustified and unfairly places the 
burden of protection on them. It appears that DOE and Interior 
have quietly crept away from this 1992 agreement without 
verifying that its terms and conditions to allow for safe 
habitability will be met.
    I also would like to say that I wholeheartedly agree with 
Dr. Palafox. The United States Congress has enacted legislation 
for U.S. citizens, people who were exposed to weapons testing 
from the Nevada test site, people who worked in uranium mines, 
and people that worked at Energy Department facilities making 
nuclear weapons, which provide a far greater benefit of the 
doubt than is provided to the people of the Marshall Islands.
    In particular, the Energy Employment Illness Compensation 
Program Act, which I was involved with while in the Energy 
Department, has a very interesting concept which I think needs 
to be applied to the Marshall Islands. It essentially provides 
for compensation for workers where it is not feasible to 
perform dose reconstruction and the burden of proof shifts to 
the government.
    At the Hanford site in Washington State, the Los Alamos 
site in New Mexico, for example, and the Nevada test site, it 
has now been determined it is not feasible to reconstruct the 
exposures to these workers, even though they wore individual 
film badges, were routinely monitored for internal exposures 
and the like. And I think that this is a clear example of what 
we need to follow, and I wholeheartedly support that proposal.
    Thank you very much. I appreciate the opportunity, and will 
be willing to answer any questions you may entertain.
    [The prepared statement of Mr. Alvarez follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. I want to thank you gentlemen for your 
most eloquent statements. Certainly this is an issue that I 
sincerely hope this subcommittee will continue to pursue while 
working closely with the appropriate Federal agencies and our 
colleagues here in the Congress.
    I just want to get a sense from each one of you. There 
seems to be a consensus that we are reaching here. As I have 
said earlier, the people of the Marshall Islands have been 
jerked around for the past 64 years by our Government, in not 
giving them proper compensation for the loss of their islands, 
the loss of their lives, severe exposure to nuclear fallout and 
all that was done. I am saddened by this, but we are going to 
pursue this.
    I am very glad that my good friend from Arizona is also 
here with us.
    Dr. Palafox, I want to commend you and thank you for taking 
the time, at your own expense, to come all the way from Hawaii 
to join us in this hearing. It is so important. You have played 
a very critical role in trying to give medical attention to the 
people of the Marshall Islands in range of our nuclear testing 
program conducted during that 12-year period.
    I want to note with interest that you seem to agree that 
the whole basis of our treatment of the Marshallese people in 
the beginning was never really to treat them, but to monitor 
and to survey and to find out what were the effects of nuclear 
fallout, especially on those who were exposed as a result of 
our nuclear testing program.
    In other words, it seems that we really were not focused on 
giving proper medical treatment to these people; instead, they 
were guinea pigs, specimens. That is all we cared about. We 
didn't care about whether or not this child or this mother or 
this woman was severely exposed or giving birth to a deformed 
baby as a result of this.
    Please, your response.
    Dr. Palafox. In your opening statement, Honorable Eni, you 
mentioned that one of the doctors regarded Marshallese close to 
mice, not quite mice, but close to mice. So I think when I 
think back on the whole history, it is very clear that even the 
basic premise that you can test atomic weapons in someone 
else's home is extremely arrogant. But I think it carried into 
the science at that time.
    So when the doctors were caring for people, their primary 
concern wasn't the people. It wasn't patient-centered. It was 
what was the interest in the time. I don't think as individuals 
that these doctors were trying to be mean or negative to the 
patients. But I think what consumed them was the thinking 
process, the arrogance, what was important, and it wasn't 
patient care.
    What really worries me today is that shouldn't carry on 
today, and it is carrying on right now. And that to me is the 
bigger problem. That should have been transcended a long time 
ago, and it is continuing to this day.
    Mr. Faleomavaega. Mr. Weisgall, I went through your 
statement with tremendous interest. I am always happy to have 
you testify and to give us insight based on your personal 
experience.
    How much money did we give to those exposed in Hanover in 
Washington? As I recall----
    Mr. Weisgall. That is an extraordinary example to use. We 
have not put a shovel in the ground yet at Hanford to clean it 
up. Total funding is on the order of magnitude now of $49 
billion. These claims--the $2.2 billion, obviously, that is a 
significant amount of money. We do spend a lot of money as a 
country to clean up, and that is one site.
    We have got Hanford, Rocky Flats, we have Savannah. There 
are a lot of other places. But we do spend a lot of money to 
deal with the legacy of that program, because we recognize that 
it is something that is a responsibility of our country.
    Mr. Faleomavaega. As I recall, it would take us over $100 
billion to clean up the nuclear waste that we are currently 
producing here in the United States. I don't know if I am 
correct on that.
    Mr. Alvarez?
    Mr. Alvarez. Well, according to the most recent baseline 
budget estimate of the Energy Department to clean up Department 
of Energy nuclear weapons sites, this will cost approximately 
$300 billion and will take perhaps 50 to 70 years to 
accomplish. In addition to that, approximately $5 billion has 
been paid out as an entitlement to workers and their survivors 
who were involved in producing nuclear weapons, and 
approximately $1.5, perhaps $2 billion, has been paid out to 
residents living near the Nevada test site and to uranium 
miners who toiled in the mines in Arizona, Utah, and the 
Western States.
    Mr. Faleomavaega. We are very happy to have with us a 
little delegation of some of our distinguished students, who 
currently attend Brigham Young University in Hawaii. I hope 
they are learning something about congressional hearings. The 
chair would like to personally welcome them here to observe 
what it is like here.
    I say this with tremendous pride, because I am an alumnus 
of Brigham Young University, Hawaii campus. I am very happy to 
have our young people come and observe the workings of 
Congress. I don't know if it will be to their benefit or 
detriment. I would like to yield to the gentleman from Arizona 
for his questions.
    Mr. Flake. I thank the chairman, and I apologize for having 
to go vote. I wasn't able to read the testimony either before. 
So if this has been answered or talked about, forgive me.
    I also wanted to welcome the students from BYU-Hawaii. I 
also spent a semester there, the best semester of my life, 
because that is where I met my wife. Anyway, many found 
memories of school there, and welcome here.
    Mr. Weisgall, you mentioned--I have just been glancing 
through your testimony, let me try to get the chronology right 
here. There are some 4,000 inhabitants of the Bikini Atoll. Was 
that prior to the Bravo test or is that----
    Mr. Weisgall. No, 167 were moved back in 1946. The 
population today, those who actually receive, for example, USDA 
food or other benefits, it has now grown to a little bit under 
4,000.
    Mr. Flake. All right. And how many were moved back in the 
sixties only to be moved again?
    Mr. Weisgall. By the sixties, the population had grown 
quite a bit by then, and my best recollection is you were 
dealing with a couple of hundred folks who moved back. I want 
to say somewhere between 200 and 300. Not the entire 
population. In fact, there was a debate in the community about 
moving back. Some were still concerned about radiation. But a 
large number did. In fact, the mayor of Bikini, who is going to 
follow me, was there as a little boy, moved back as a little 
boy, and then as a 10-year-old was moved off in 1979.
    Mr. Flake. For those moved back and then were relocated 
again, they were relocated because they were told they had 
ingested levels of radiation far in excess of what we thought 
were there. What, if any, ill effects have we detected from 
that period?
    Mr. Weisgall. From an epidemiological point of view, with a 
small number of people like that, it has been hard to see any 
major statistical differences. There have been cancers. There 
have been radiation-related ones. But nothing as dramatic as 
you see in the statistics from Rongelap, where you had exposure 
similar to Hiroshima or Nagasaki, or much greater than 
Chernobyl.
    So with Bikini, while they had ingested the largest amount 
of radiation of any known population through the food chain, 
that also went through their systems pretty quickly once they 
were evacuated.
    Mr. Flake. Ingested. Then it was in the soil, therefore in 
coconuts?
    Mr. Weisgall. Coconuts, pandanus, breadfruit. It all came 
up through the soil simply because the cesium acts a little bit 
like potassium; but the cesium, strontium, americium were 
absorbed in the food. This is something that, again, was 
discovered by scientists once the folks were back there. The 
scientists did not realize in advance what that level of 
absorption would be in the food products.
    Mr. Flake. Here we are 60-some years later. Are there any--
I know some are willing to move back now just because the 
relocation is finally happening. But what concerns are there 
now still on any of the islands in the Marshall Islands in 
terms of radiation still existing?
    Mr. Weisgall. To speak very quickly for Bikini, it still 
needs a radiological clean-up. You could scrape that soil. You 
could apply potassium-rich fertilizer and block the uptake of 
the cesium and some americium, strontium and plutonium. But 
there is not funding. Right now, there are no Bikinians living 
back on their atoll 64 years later.
    In Enewetak, the northern islands are still too 
radioactive, and the radiation concerns at Rongelap and Utrok 
are similar.
    Mr. Flake. There is some tourism, mostly ecotourism, 
happening near Bikini, is there not; and where are those 
individuals living or staying?
    Mr. Weisgall. There was a dive program that the Bikinians 
started because the first test in 46 sank a number of Navy 
ships, including the Saratoga. You can actually walk end to end 
on that flight deck. That started in 1996. It was terminated 
several years ago simply because the logistics of the airline 
couldn't support it.
    To be up at Bikini for a couple of days or for 3 or 4 days 
is not an issue, especially when you are eating imported food. 
So it is not a medical or scientific concern because, number 
one, it is a short duration, and number two, very little if any 
local food is consumed--was consumed.
    Mr. Flake. But if somebody were to relocate there without 
soil scraping or anything else, there are still levels of 
radiation?
    Mr. Weisgall. You would expect pretty much a repeat of the 
experience from 1968 to 1979, with the half-life of the cesium 
being obviously somewhat reduced. But even the folks, the very 
good scientists at Lawrence Livermore who have been helpful in 
coming up with these remediation measures, came up with them 
because not having the remediation measures is a problem. In 
other words, the lack of the remediation measures leaves you 
the radiation levels in excess of acceptable standards.
    Mr. Flake. So there are no full-time residents of Bikini 
Atoll at all right now?
    Mr. Weisgall. Correct.
    Mr. Flake. Mr. Alvarez?
    Mr. Alvarez. Yes. In 2005, the National Cancer Institute 
reported to the U.S. Senate Committee on Energy and Natural 
Resources, that among the 14,000 inhabitants who live in the 
Marshall Islands, an estimated 500 cancers would result from 
radioactive fallout. The risk of contracting cancer for those 
exposed to fallout was greater than 1 in 3.
    So, it is not simply just the people who were the most 
heavily exposed. It is the entire archipelago that we need to 
be concerned about.
    Mr. Flake. So not just the ones who were downwind of 
Rongelap or elsewhere?
    Mr. Alvarez. I guess it is important to understand there 
were 66 nuclear shots there, and in many cases the radiation 
monitoring, given the time and circumstances, left much to be 
desired. So it is very similar to the United States when we 
exploded bombs in the Nevada test site. We weren't monitoring a 
lot of stuff. We released a lot of radiation, and there is 
still a lot of unknowns. But there was a lot of radiation 
released and a lot of people have been exposed.
    Mr. Flake. Any other comments on that?
    Mr. Alvarez. No.
    Mr. Flake. Thank you, Mr. Chairman.
    Mr. Faleomavaega. Dr. Palafox, you mentioned the word 
``arrogance'' about why we shifted our whole testing program. I 
don't know if it was really arrogance to say, ``Rather than 
testing in America, in the continental US, let's take our 
atomic bombs to the Marshall Islands. It is more feasible. A 
few people, little islands, who cares?''
    I am reminded of what former Secretary of State Kissinger 
said when he was talking about negotiations with the 
Micronesians. Do you know what he said? ``There are only 90,000 
of them. Who gives a damn?'' That was the attitude. That was 
the attitude that our administrators, those national 
policymakers, had toward these people.
    I was saddened by that fact as I traveled to visit Mururoa 
Island where the French conducted their nuclear testing 
program. Certainly nobody in France would like to have nuclear 
bombs dropped all over the place in France, so they decided to 
come to the Pacific and conduct their nuclear tests.
    As for the Soviet Union, nobody wanted to explode bombs in 
Russia; they decided to go to Kazakhstan, then a province, and 
detonated 450 nuclear devices.
    By the way, when we exploded the Bravo shot in 1954, it was 
1,300 times more powerful than the bomb we dropped in Hiroshima 
and Nagasaki. The hydrogen bomb that the Russians built was 50 
megatons, 3,000 times more powerful than the bombs we dropped 
in Hiroshima, which still to this day is classified and not 
much is known about it.
    I don't know. In our national interest we decided to do 
this, and I think that all we are trying to do here is give 
better treatment to the Marshallese people for the sacrifices 
they have had to endure for that 60-year period. They are still 
waiting for justice and fairness and we should give them what 
they are due.
    I sincerely hope that my colleagues, Mr. Flake, Congressman 
Ackerman and others, will be supportive of this effort. I am 
not going to wait. This is just the beginning. We are building 
a record, hopefully, and in such a way that we can develop 
legislation that is going to address some of these serious 
issues affecting the good people of the Marshall Islands.
    Mr. Miller, thank you for your visit. As you notice, I am 
wearing a mai kai. It was from my dear friend, a member of the 
Oneida Nation of New York. I am an adopted member of the Bear 
Clan. Hopefully I will have the mana and the power of the bear, 
not to kill anybody, but just to hopefully be helpful in such a 
way that we will produce better results in helping the people 
of the Marshall Islands.
    Mr. Weisgall?
    Mr. Weisgall. Two very quick points. Number one, going back 
to your quotation at your opening statement about the mice, 
that was a transcript of a meeting. I think it is very 
interesting to see a sanitized view of this issue.
    The annual report, the 1957 annual report from Dr. Canard 
who headed up the AEC team--the Brookhaven team--listen to this 
language. This concerns putting people back on Rongelap and 
Utrok:

        ``The habitation of these people on the island will 
        afford the opportunity for most valuable ecological 
        data on human beings. The various radio isotopes 
        present on the island can be traced from the soil 
        through the food chain and into the human beings.''

    It is a very kind of sanitized, very scientific view of 
well, we can learn a lot by doing this, as opposed to what one 
would say privately at a meeting. It is an extraordinary 
statement in an annual report from Brookhaven.
    My second point for Mr. Flake, you know, this is a 
bipartisan issue. It is a bipartisan concern, as you have 
pointed out, and Mr. Rohrabacher. It is interesting to me there 
is now a bill pending both in the House, H.R. 5119, and in the 
Senate, S. 3224, to expand even more the Radiation Exposure 
Compensation Act. That is H.R. 5119 and S. 3224.
    I am also pleased that the sponsors over on the Senate side 
include a range of Senators, that include for instance, Mr. 
Risch from Idaho, a number of Republicans that are as concerned 
as Democrats about this issue, obviously for their constituents 
down-winders and the like in the continental United States. But 
as we have heard today, the same issues should apply to the 
Marshalls.
    Mr. Alvarez. On page 1 of my testimony, I have the verbatim 
quote taken from the transcript of the meeting of the Advisory 
Committee for Biology and Medicine in 1956, discussing whether 
or not the people of Rongelap should return. What it says is 
the following. It says,

        ``The northern atolls is by far the most contaminated 
        place in the world. It would be very interesting to go 
        back and get good environmental data.''

On and on he goes.

        ``Now, this type of data has never been available. 
        While it is true these people do not live, I would say, 
        the way Westerners do, civilized people that is, 
        nevertheless they are more like us than the mice.''

    Mr. Faleomavaega. Gentlemen, thank you for your time and 
for your most eloquent statements.
    Dr. Palafox, again, thank you for traveling such a long 
distance to come and provide this most valuable testimony to 
the committee.
    Hopefully, we will continue to be in touch with all of you. 
Thank you very, very much.
    [Whereupon, at 4:50 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               
[Note: Additional material submitted with the preceding statement is 
not reprinted here but is available in committee 
records.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
